Review of the SEC’s Continuity of
Operations Program




                                                     April 23, 2012
                                                     Report No. 502

Review Conducted by TWM Associates, Inc.

                           REDACTED PUBLIC VERSION
Review of the SEC’s Continuity of Operations Program   April 23, 2012
Report No. 502
                                      i
                           REDACTED PUBLIC VERSION
Should you have any questions regarding this report, please do not hesitate to
contact me, or the Acting Deputy Inspector General, Jacqueline Wilson at 1-
6326.

We appreciate the courtesy and cooperation that you and your staff extended to
our contractor during this review.

Attachment

cc:    James Burns, Deputy Chief of Staff, Office of the Chairman
       Luis A. Aguilar, Commissioner
       Troy A. Paredes, Commissioner
       Elisse Walter, Commissioner
       Daniel Gallagher, Commissioner
       Lacey Dingman, Director, Office of Human Resources




Review of the SEC’s Continuity of Operations Program                 April 23, 2012
Report No. 502
                                      ii
                           REDACTED PUBLIC VERSION
Review of the SEC’s Continuity of
Operations Program

                              Executive Summary
Background. The U.S. Securities and Exchange Commission (SEC or
Commission) Office of Inspector General (OIG) contracted the professional
services of TWM Associates, Inc. (TWM) to conduct a review of the SEC’s
Continuity of Operations Program (COOP).

A Continuity of Operations Program (COOP), including the Business Continuity
Planning (BCP) and Disaster Recovery Plan (DRP), are essential to an
organization maintaining its critical operations when unforeseen disruptions or
interruptions occur that may affect the organization’s normal operations. All
federal agencies are required to have viable programs and plans in place to
ensure they are able to continue to perform critical functions during an
emergency. An agency’s COOP plan focuses on restoring the organization’s
Mission Essential Functions at an alternate site and performing those functions
for up to 30 days before returning to normal operations. Additional functions, or
those performed at a field office level, may be addressed by the BCP. “Minor
threats or disruptions that do not require relocation to an alternate site are
typically not addressed in a COOP plan.” 1 Standard elements of a COOP plan
include: program plans and procedures; continuity communications; risk
management; vital records management; budgeting and acquisition of resources;
human capital; essential functions; test, training, and exercise; order of
succession; devolution; delegation of authority; reconstitution; and continuity
facilities. COOP plans are specific types of plans that should not be confused
with BCPs, DRP, or Information System Contingency Plans (ISCP).

The Office of the Chief Operating Officer, Chief Operating Officer (COO)
assumed overall responsibility for overseeing the SEC’s agency-wide COOP in
2011, when the former Executive Director left the SEC and these duties were
transferred to the COO. Specifically, the Office of Freedom of Information Act,
Records Management, and Security’s (OFRMS), which reports to the COO,
Office of Security Services (OSS), has been responsible for developing and
managing the SEC’s COOP since July 2011.

The SEC’s regional offices and Office of Information Technology (OIT) also play
supporting roles in the COOP process. Regional office directors are responsible
for updating their COOP plan supplements. OIT has various functions

1
 NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010, page 8,
section 2.2.2.
Review of the SEC’s Continuity of Operations Program                                   April 23, 2012
Report No. 502
                                        iii
                              REDACTED PUBLIC VERSION
complementary to COOP processes and is responsible for developing and
managing the technology processes for the SEC’s business continuity
management structure. OIT is also responsible for the SEC’s DRP and must be
able to recover its full main infrastructure in the event of a disaster. Further, the
responsibilities associated with the DRP are overseen by the Commission’s Chief
Information Officer.

The SEC has a COOP and some related COOP policies and procedures and the
SEC periodically conducts testing of the COOP plan. In addition, there is an
overall OIT contingency plan (e.g., the ISCP for the general support system) and
individual Headquarters division and office COOP plan documents. Further,
DRPs and business impact analysis (BIA) are prepared for individual systems,
and each regional office has a DRP for its office infrastructure that complements
the Headquarters’ base DRP for regional offices.

Further, the SEC’s COOP plan identifies essential personnel, vital records, lines
of succession and other required information. The SEC has identified
essential personnel under its COOP plan and it has established relocation sites
for

                                                    The overall Commission
COOP plan document was updated April 2008 and April 2010, and the most
recent version is a draft dated October 2011. SEC’s Headquarters
divisions/office’s COOP plans and the regional office’s COOP supplements have
various dates, some of which are outdated.

In addition to its 2010 COOP plan, the SEC has a separate pandemic influenza
preparedness plan (pandemic plan), which incorporates the COOP plan. The
SEC’s pandemic plan focuses on protecting the health of SEC employees, while
maintaining agency operations during a pandemic. 2

Objectives. The overall objective of TWM’s review was to determine whether
the SEC had a viable COOP, BCP, and DRP that sufficiently supported its
operations at its Headquarters, Operations Center, and 11 regional offices.
Further, the review sought to determine if the Commission is adequately
prepared to perform essential functions during business continuity or disaster
recovery event resulting from human/natural disasters, national emergency, or
technological events which could impact the Commission’s ability to continue
mission-critical and essential functions. The sub-objectives for the review were
to:



2
 “A pandemic occurs when a novel strain of influenza virus emerges that has the ability to infect and be
passed between humans. Because humans have little immunity to the new virus, a worldwide epidemic, or
pandemic can ensue.” National Strategy for Pandemic Influenza Implementation Plan, May 2006, page 1.
Review of the SEC’s Continuity of Operations Program                                      April 23, 2012
Report No. 502
                                         iv
                               REDACTED PUBLIC VERSION
   •   Evaluate the Commission’s pandemic plan to ensure it is formal,
       documented, well-communicated, has been tested at regular
       intervals, and meets the objectives of the National Strategy for
       Pandemic Influenza: Implementation;
   •   Assess the Commission’s implementation and testing of its
       pandemic plan;
   •   Determine the Commission’s plans for protecting its employees and
       contractors during a pandemic occurrence; and
   •   Evaluate the Commission’s plans for sustaining essential functions
       during high rates of employee absenteeism.

Results. Our review found that while the SEC does have a COOP function and
plan (including relocation sites and testing) in place, the program needs to be
improved. In particular, the SEC’s COOP policies, directives and documents are
out-of-date and incomplete, are not comprehensive and are not currently being
followed in some respects. However, since assuming agency-wide responsibility
for the COOP Program, the COO directed OFRMS/OSS to perform a thorough
review of the SEC’s entire COOP program. In addition, after the conclusion of our
fieldwork for this review we were informed and confirmed that the OSS issued a
statement of work to hire a contractor to provide support to the SEC’s COOP and
to assist in addressing deficiencies OIG identified in this report and OSS’s
internal COOP assessment.

The SEC’s draft COOP plan states that the divisions, offices, and regional offices
are required to report any changes to their supplemental plans to the COO. We
found, however, that supplemental plans are not being updated and two regional
offices did not have supplemental COOP plans. Further, we found that essential
personnel information in the COOP supplements has not been properly
maintained and were not up-to-date. In addition, while the overall COOP plan
referenced key SEC personnel who comprise the vital records information for the
regional offices and Headquarters divisions and offices, it was incomplete and
outdated.

Our review further identified deficiencies with the DRPs for individual systems,
and we found that that the SEC does not prepare BCPs or ISCPs for its
information systems. While OIT stated that BCPs and ISCPs are unnecessary
because the components of these documents are included in the DRPs and BIAs
for these systems, we found that some BCP elements were missing.

Additionally, our review identified instances in which information feeds and power
distribution throughout the SEC’s network could fail if a disruption were to occur.
Specifically, we found that the information data feeds for the SEC’s
         are currently available only through connections to the SEC network and
that the data would, therefore, be unavailable if the                        were
incapacitated. We also identified power issues at the
Review of the SEC’s Continuity of Operations Program                   April 23, 2012
Report No. 502
                                      v
                           REDACTED PUBLIC VERSION
We also uncovered inconsistencies between the categorization of the systems
that were reported to Office of Management and Budget under Federal
Information Security Management Act (FISMA), and the recovery time objectives
established for SEC COOP systems. For FISMA reportable systems with a
moderate to low rated availability, the SEC COOP established recovery time
objectives may be overly aggressive and could result in unnecessary expense in
documentation, testing, and infrastructure.

In addition, we found SEC systems with a recovery time objective of
which was inconsistent with the COOP documentation for these systems and the
FISMA availability categorization of the systems.

Further we found that improvements were needed in the processes for
recovering data from              and related testing. Specifically,


                                                                       In addition, the
current             and data restoration processes are insufficient. The SEC




Based upon a review of COOP documents including those found
                                          we identified essential personnel who no
longer worked at the SEC, some essential personnel have not been issued
remote access devices and/or tested the devices they were issued. 3 Further,
some essential personnel that were issued                    never logged in or have
not logged in remotely within the past year and, therefore, have not effectively
tested their ability to log in during an unscheduled event using this remote access
method.

We also found that remote access capabilities would be enhanced if remote
access to desktop applications could function even if the user’s desktop
computer was turned off or did not have power. The SEC has a pandemic plan
and its remote access capabilities infrastructure appear to be adequate for this
purpose.


3

matters and is designed to provide SEC divisions/offices with the capability to customize their COOP
information across a variety of categories. The                     Word files, Excel spreadsheets and pdf
files that may be accessed and updated by individuals who have access to the site.
Review of the SEC’s Continuity of Operations Program                                        April 23, 2012
Report No. 502
                                          vi
                                REDACTED PUBLIC VERSION
The DRPs for several regional offices have not been tested annually, and two
regional offices did not include recovery phase testing in their latest disaster
recovery test plans. Also seven regional offices did not include reconstitution
phase testing in their most recent disaster recovery test plans. Further, we found
that the regional offices did not test any element (e.g., a file or data record) from
the system’s                  for systems that had overall moderate rating under
FISMA.

SEC division/office heads select essential personnel based on certain written
factors and designated        individuals as essential. Though the SEC indicated in
its OIT contingency plan that COOP and disaster recovery testing exercise
participation satisfies the requirement to ensure a trained workforce is available
to support the SEC’s mission critical functions during and following a disaster,
our review revealed that only            (3.1 percent) of persons identified as
essential personnel under the COOP actually attended the exercise. Further, our
review found the SEC did not have a sufficient level of participation by regional
office essential personnel in its disaster recovery testing to ensure they were
adequately trained.

We were informed that equipment at the SEC’s devolution sites were out-of-date
and could not be used with SEC’s network, due to unresolved security issues.
Further, the SEC’s COOP plan indicates there are          workstations/work areas
available at the SEC’s Operations Center location, where emergency response
personnel are to relocate in the event of an emergency. However, our review
found a total of      vacant seats (not vacant offices) in the entire building.
Therefore, COOP plan documentation on space availability needs to be revised
to reflect current space availability and needs, taking into account the potential
for telework and remote access.

The SEC performs DRP testing for each regional office infrastructure and
individual system applications. All of the regional office’s DRPs state that
POA&Ms will be created. Our review found 39.5 percent of the
recommendations generated during the regional office DRP testing could not be
tracked to any POA&M and was not identified as having been resolved in the
updated DRPs (dates ranging from 2010 to 2011). Further, we found that at
least two items identified in the annual Headquarters COOP testing that should
have been included as POA&M items (submission of filings gap during testing of
Testimony Tracking System, and order of startup for production servers on
Business Objective 11 system). We also found that eight regional offices have
not updated their DRPs to include recommendations that were identified in DRP
testing.

The SEC has chosen to eliminate the BCP, indicating that the elements in the
BCP are already contained in the DRP and BIAs. As a consequence, the SEC’s
DRP exercises are primarily viewed as information technology exercises. As
Review of the SEC’s Continuity of Operations Program                     April 23, 2012
Report No. 502
                                     vii
                           REDACTED PUBLIC VERSION
training and exercises cover the same topics, the SEC uses exercises to satisfy
its training requirement in an effort to reduce the number of hours that are
devoted to these activities. We also found that the SEC used the participation in
regional office DRP exercises to satisfy its requirement to train essential
personnel both for the COOP plan and DRP. Our testing revealed that between
2008 and 2011, an average of 88 percent of regional office identified essential
personnel did not participate in DRP training or exercises. This indicates that the
regional offices essential personnel may not have been sufficiently trained in their
roles and responsibilities during a disaster recovery event. As a consequence,
essential personnel may not be able to perform their responsibilities during the
activation of a DRP.

Finally, we found that while OIT personnel regularly participate in DRP exercises,
many key essential personnel do not participate in these exercises and have not
received the appropriate role-based training for their part in DRP and COOP
activities. Instead, in the past these personnel have only received the annual
refresher, online training course.

Recommendations. Based on the results of our review we made the following
recommendations:

          (1) The Office of the Chief Operating Officer should ensure that the
              OFRMS completes its review of the agency-wide COOP to ensure
              the Commission’s COOP is comprehensive, cohesive, and in
              compliance with federal guidance.

          (2) OFRMS should revise and update the Commission’s continuity of
              operations program policies and procedures to ensure they are
              comprehensive, complete, and up-to-date.

          (3) OFRMS and OIT, in conjunction with the program divisions/offices
              and regional offices, should update, revise and finalize all COOP
              documents, including the overall Headquarters COOP plan,
              individual division/office COOP plans, regional office COOP
              supplements, disaster recovery plans, business continuity plans and
              business impact analyses, and pandemic plans supplements.
              OFRMS and OIT should ensure these documents are complete and
              include all the necessary elements, and that they properly define the
              Commission’s essential functions. In addition, processes should be
              implemented to ensure annual review and approval of these
              documents.

          (4) OFRMS, in conjunction with program and regional offices, should
              ensure that vital records and lines of succession are properly


Review of the SEC’s Continuity of Operations Program                    April 23, 2012
Report No. 502
                                     viii
                           REDACTED PUBLIC VERSION
              identified, documented and readily available during continuity
              events.

          (5) OIT, in conjunction with the primary program information users,
              should identify
                                                   at the alternate locations should
                             be unavailable. Further, OIT should review the SEC’s
              network and topology to ensure there are


          (6) OIT should ensure proper power distribution throughout the network




          (7) OFRMS, in conjunction with the OIT and system owners, should
              revise the SEC system recovery time objectives to specify more
              realistic timeframes, based on the ability to transition to the alternate
              site, and then determine acceptable recovery times. The recovery
              plan and priority of recovery of the systems should be based on the
              overall mission of the agency with a focus on real-time monitoring of
              the markets. Further, the identification of high priority systems
              should focus on the immediate mission of the agency, and systems
              documentation should also be reviewed to ensure proper recovery
              priority is reflected based on the contribution to the SEC’s mission
              and functions.

          (8) For underutilized systems such as the
                                  the Office of Information Technology should
              consider discontinuing maintenance, retiring the system, or
              alternatively making more robust use of the system such that
              additional Commission funds are not wasted on underutilized
              systems.

          (9) OIT, in conjunction with system owners, should identify the
              requirements (e.g., files, data, and system software) for all systems
              (at minimum, Federal Information Security Management Act
              reportable systems). OIT should ensure that            requirements
              are documented, understood by the owner, and published for future
              reference. Further, OIT should ensure system software licenses
              and key requirements are included in           documentation, and
              the location of this information is known to ensure restoration
              capability at the alternate location site.



Review of the SEC’s Continuity of Operations Program                      April 23, 2012
Report No. 502
                                     ix
                           REDACTED PUBLIC VERSION
          (10) OIT, in conjunction with the regional offices, should document the
             processes and procedures to be used in the event that a regional
             office needs to restore its systems at a regional office transition site,
             and the corresponding effect on the            procedures for other
             regional offices that may need to use a regional office transition site
             or alternate method to ensure recoverability.

          (11) OIT should continue its efforts to replace the regional office’s tape
                     systems. Additionally, OIT should define a              and
             recovery strategy for multi-hosted application restoration for the
             regional offices. OIT should also document the system specific files
             and database items, in order to facilitate the ability to restore only
             necessary items, rather than the entire database, which could take
             many hours to accomplish and is not in line with the recovery time
             objectives for individual systems.

          (12) OIT should implement consistent and appropriate
             schedules for mission essential and Federal Information System
             Management Act reportable systems, including daily, weekly, and
             monthly          processes and procedures, to ensure these
             systems are recoverable.

          (13) OIT should include in the Disaster Recovery Plan and Business
             Continuity Plan, testing steps that are designed to ensure the
             restoration from                 that is consistent with the
             requirements for systems that are rated as moderate, in accordance
             with the National Institute of Standards and Technology guidance
             under the Federal Information Systems Management Act.

          (14) OIT should ensure that remote access testing is included as part of
             all Continuity of Operations Program, disaster recovery and
             pandemic testing activities, including those performed in the regional
             offices, to ensure that essential personnel and a sample of the
             representative users of the system are able to function remotely
             during an unscheduled event.

          (15) OIT, in consultation with the OFRMS, should require semi-annual
             testing of remote access devices to ensure up-to-date connectivity
             and ability for both essential personnel and non-essential personnel
             to access the Commission’s network. In addition, OIT and OFRMS
             should implement a system notification warning prior to the
             connectivity testing date and then disable those devices that are not
             updated.



Review of the SEC’s Continuity of Operations Program                      April 23, 2012
Report No. 502
                                      x
                           REDACTED PUBLIC VERSION
          (16) OFRMS and OIT should consider implementation of alternate
             remote access solutions and/or internal directory structure

                                                   and Federal Information
              Security Management Act reportable systems.

          (17) OFRMS and OIT should update the COOP documents and
             necessary agreements to appropriately reflect authorized telework
             activities by Commission personnel during unscheduled events
             under the COOP, disaster recovery and pandemic plans, including
             equipment that will be used for teleworking in such circumstances.

          (18) OFRMS and OIT should ensure that the agency’s disaster recovery
             testing includes the Commissions mission essential and Federal
             Information Security Management Act reportable systems and
             pandemic plan testing is conducted on a regular basis.

          (19) OIT should determine aspects of continuity of operations disaster
             recovery and business continuity plan testing that should be
             conducted annually for regional offices and for Federal Information
             Security Management Act reportable systems based upon their
             security categorization. OIT should ensure that this testing includes
             the recovery phase and the reconstitution phase, as well as a
             restoration from

          (20) OIT should add elements to contracts and service level agreements
             for externally hosted systems to provide appropriate methods by
             which the SEC can obtain assurance that appropriate disaster
             recovery plan testing is performed on mission essential and Federal
             Information Security Management Act reportable systems and to
             ensure the systems are able to function during unscheduled events.
             Such measures may include SEC participation in the disaster
             recovery plan testing for the externally hosted systems and/or a
             review of the results of such testing.

          (21) OIT should include elements of testing from an alternate site in the
             regional office continuity of operations program, disaster recovery,
             and business continuity plan testing on a periodic basis to ensure
             the necessary capability and functionality for regional office activities
             are in place.




Review of the SEC’s Continuity of Operations Program                      April 23, 2012
Report No. 502
                                     xi
                           REDACTED PUBLIC VERSION
          (22) OFRMS and OIT should include designated essential personnel for
             systems, divisions/offices, and regional offices in COOP and
             disaster recovery testing to ensure that a trained workforce is
             available to support the SEC’s mission critical functions following a
             disaster.

          (23) OIT should ensure that system specific scripts and test scenarios
             are included in the disaster recovery and business continuity plan
             testing activities to provide assurance of system functionality at
             alternate locations.

          (24) OFRMS and OIT should reassess the definition of essential
             personnel to ensure that this designation includes only personnel
             whose services are needed during an event to establish mission
             essential system connectivity and conduct essential activities until
             normal operations are resumed. OFRMS and OIT should also
             develop policies and procedures to ensure that elevated
             communication cards are distributed only to necessary personnel,
             cards are disabled upon an employee’s departure from the agency,
             and all essential personnel have appropriate elevated
             communication cards.

          (25) OFRMS, in conjunction with the regional offices, should specify
             alternate work locations for which the necessary logistics, such as
             memoranda of agreement, service level agreements, or credit card
             limits for hotel conference rooms or other locations, are arranged in
             advance.

          (26) OFRMS should categorize essential personnel according to
             necessary functions, based on various realistic scenarios (such as
             Headquarters or Operations Center locations becoming inaccessible
             or not operational, including traffic conditions that would affect the
             scenario). Possible categories include personnel required for
             immediate activities, personnel needed to establish connections at
             the alternate site, and personnel needed to work remotely at
             designated alternate sites such as their homes, hotels, or other
             specified locations.

          (27) OFRMS, as part of its planning efforts, should specify when
             Commission personnel are to telework after an event and when they
             must go to the designated alternate locations instead of teleworking.

          (28) OFRMS and OIT should define migration paths from
                     should it become inaccessible and specify where the
             alternate worksite locations for

Review of the SEC’s Continuity of Operations Program                   April 23, 2012
Report No. 502
                                     xii
                           REDACTED PUBLIC VERSION
          (29) OFRMS and OIT should ensure that the designated Headquarters
             alternate worksites are ready for use and contain sufficient
             equipment and technology resources. In addition, COOP plan
             documentation should be revised to reflect current space availability
             and needs, taking into account the potential for telework and remote
             access.

          (30) OFRMS and OIT should ensure that designated alternate worksite
             locations are visited and tested periodically to ensure ready access
             and use. Appropriate steps should be taken to ensure that any
             cards or badges required for entry to alternate worksite locations are
             kept up to date and have not expired.

          (31) OIT should reinforce the need for SEC personnel and contractors to
             register in the agency’s emergency notification system, which is
             designated as the primary method of notifying employees during a
             continuity of operations or pandemic event. OIT should also
             implement procedures to ensure the removal of personnel from the
             emergency notification system after they leave the SEC.

          (32) OFRMS and OIT should clearly define in the continuity of
             operations, disaster recovery, and business continuity plan
             documentation the alternate worksite or telework locations for both
             essential and non-essential personnel. This documentation should
             also clarify whether; when relocating to an alternate site is required,
             family members may accompany Commission employees and
             contractors to the relocation site, consistent with federal regulations.

          (33) OFRMS and OIT should ensure that recommendations made as a
             result of the continuity of operations, disaster recovery, business
             continuity and pandemic testing are included in a management
             corrective action plan (CAP) and is maintained in the CAP until it is
             resolved.

          (34) OIT should ensure that open POA&M items from previous years
             are evaluated by management and final corrective actions are
             implemented to close the items.

          (35) OFRMS and OIT should ensure that continuity of operations,
             disaster recovery, and business continuity plan training occur prior
             to annual tests exercises or events as recommended by NIST
             Special Publication 800-84, Guide to Test, Training, and Exercise
             Programs for Information Technology Plans and Capabilities, in
             order to ensure that individuals are prepared for their specific roles
             during a disaster recovery event.

Review of the SEC’s Continuity of Operations Program                     April 23, 2012
Report No. 502
                                     xiii
                           REDACTED PUBLIC VERSION
          (36) OFRMS, in conjunction with the OHR, OIT, and the various
             divisions and offices, should consider, consistent with federal
             personnel regulations, if there is the ability to cross-train regional
             office personnel in functions that are performed exclusively at the
             Commission Headquarters and regional offices and, if so, should
             define these functions and implement procedures for cross-training
             personnel for mission essential functions in the case of a COOP or
             pandemic event.

          (37) OFRMS and OIT, in conjunction with the OAS and OGC, should
             document that the necessary contractual agreements and/or
             provisions are in place to ensure the availability of hardware,
             software, and services that may be required during an emergency.
             The use of government credit cards to procure such equipment and
             services should also be considered and documented. If government
             credit cards are to be used for this purpose, the authorized limits
             established should be sufficient for such purchases.

          (38) OFRMS and OIT, in conjunction with the regional offices, OAS,
             OFM, and OGC, should ensure that an appropriate and updated
             Memoranda of Agreement, Memoranda of Understanding and
             Service-Level Agreements are executed to provide for alternate
             work site locations, capabilities, and accommodations that may be
             necessary to ensure continuity of operations.

OFRMS and OIT fully concurred with all the recommendations in this report that
were addressed to their respective offices.

The full version of this report includes information that the SEC considers to be
sensitive or proprietary. To create this public version of the report, OIG redacted
(blacked out) potentially sensitive, proprietary information from the report.




Review of the SEC’s Continuity of Operations Program                    April 23, 2012
Report No. 502
                                     xiv
                           REDACTED PUBLIC VERSION
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii

Table of Contents ....................................................................................................... xv

Background and Objectives .................................................................................. 1
     Background ....................................................................................................... 1
     Objectives ........................................................................................................ 10

Findings and Recommendations ........................................................................ 11
     Finding 1: SEC’s COOP Policies, Procedures and Documents Require
     Updating, More Cohesiveness, and Inclusion of Missing Elements ................. 11
                  Recommendation 1..................................................................... 18
                  Recommendation 2..................................................................... 18
                  Recommendation 3..................................................................... 19
                  Recommendation 4..................................................................... 19

         Finding 2: Network Weaknesses Could Affect the SEC’s Continuity of
         Operations and Disaster Recovery Plans......................................................... 20
                      Recommendation 5..................................................................... 21
                      Recommendation 6..................................................................... 21

         Finding 3: The COOP Systems’ Availability Categorization and Utilization
         Should be Reviewed ........................................................................................ 22
                      Recommendation 7..................................................................... 24
                      Recommendation 8..................................................................... 24

         Finding 4: Improvements Are Needed in Recovery from
         and Related Testing ......................................................................................... 25
                      Recommendation 9..................................................................... 28
                      Recommendation 10................................................................... 29
                      Recommendation 11................................................................... 29
                      Recommendation 12................................................................... 29
                      Recommendation 13................................................................... 30

         Finding 5: Remote Access/Telework Testing Was Not Included in the
         SEC’s DRP and Pandemic Plan Testing .......................................................... 30
                      Recommendation 14................................................................... 33
                      Recommendation 15................................................................... 34
                      Recommendation 16................................................................... 34
                      Recommendation 17................................................................... 34



Review of the SEC’s Continuity of Operations Program                                                April 23, 2012
Report No. 502
                                             xv
                                   REDACTED PUBLIC VERSION
       Finding 6: COOP and Disaster Recovery Testing Activities Can Be
       Improved .......................................................................................................... 35
                      Recommendation 18................................................................... 39
                      Recommendation 19................................................................... 40
                      Recommendation 20................................................................... 40
                      Recommendation 21................................................................... 40
                      Recommendation 22................................................................... 41
                      Recommendation 23................................................................... 41
                      Recommendation 24................................................................... 41

       Finding 7: Alternate Work Locations Need to Be Realistic, Maintained in a
       Ready State, and Communicated to Staff ........................................................ 42
                     Recommendation 25................................................................... 45
                     Recommendation 26................................................................... 46
                     Recommendation 27................................................................... 46
                     Recommendation 28................................................................... 46
                     Recommendation 29................................................................... 47
                     Recommendation 30................................................................... 47
                     Recommendation 31................................................................... 47
                     Recommendation 32................................................................... 48

       Finding 8: Plans of Action and Milestones (POA&M) Need to Be
       Complete and Up-to-Date ................................................................................ 48
                    Recommendation 33................................................................... 49
                    Recommendation 34................................................................... 50

       Finding 9: Additional Training and Cross-Training of COOP Personnel is
       Required........................................................................................................... 50
                      Recommendation 35................................................................... 52
                      Recommendation 36................................................................... 53

       Finding 10: Necessary Memoranda of Agreement, Memoranda of
       Understanding, and Service-Level Agreements Were Not Present or Are
       Outdated .......................................................................................................... 53
                      Recommendation 37................................................................... 55
                      Recommendation 38................................................................... 56




Review of the SEC’s Continuity of Operations Program                                                April 23, 2012
Report No. 502
                                           xvi
                                 REDACTED PUBLIC VERSION
Appendices
    Appendix I: Abbreviations................................................................................ 57
    Appendix II: List of Issues Identified in Review of Disaster Recovery and
    Continuity of Operations Plans ......................................................................... 58
    Appendix III: List of Issues Identified from Sample Testing of System
    Disaster Recovery Plan and Business Impact Analysis Documents ................ 61
    Appendix IV: Scope and Methodology ............................................................ 64
    Appendix V: Criteria ........................................................................................ 66
    Appendix VI: List of Recommendations .......................................................... 68
    Appendix VII: Management Comments........................................................... 77
    Appendix VIII: OIG Response to Management’s Comments........................... 86




Review of the SEC’s Continuity of Operations Program                                         April 23, 2012
Report No. 502
                                          xvii
                                REDACTED PUBLIC VERSION
                    Background and Objectives

Background
Based on the Office of Inspector General’s (OIG) annual audit plan, the OIG
contracted the professional services of TWM Associates, Inc. (TWM) to conduct
a review of the SEC’s Continuity of Operations Program (COOP).

All federal agencies are required to have viable programs and plans in place to
ensure they are able to continue to perform critical functions during an
emergency. Specifically, Federal Continuity Directive 1 (FCD 1), Federal
Executive Branch National Continuity Program and Requirements, “provides
direction to the Federal executive branch for developing continuity plans and
programs” and provides that “[c]ontinuity requirements must be incorporated into
the daily operations of all agencies to ensure seamless and immediate
continuation of Primary Mission Essential Function (PMEF) capabilities so that
critical government functions and services remain available to the Nation’s
citizens.” 4

FCD 1 states, “In support of this policy, the Federal executive branch has
developed and implemented a continuity program which is composed of efforts
within individual agencies to ensure that their Mission Essential Functions (MEF)
continue to be performed during a wide range of emergencies, including localized
acts of nature, accidents, and technological or attack-related emergencies.”5
FCD 1 also states, “All agencies, regardless of their size or location, shall have in
place a viable continuity capability to ensure continued performance of their
agency’s essential functions under all conditions.” 6 Federal Continuity Directive
2 (FCD 2), Federal Executive Branch Mission Essential Function and Primary
Mission Essential Function Identification and Submission Process, provides
guidance and direction to federal agencies in identifying their MEFs and potential
PMEFs, and provides that “[a]n agency should carefully review all of its missions
and functions before determining those that are essential.” 7

Federal Requirements for COOP Plans and Related Documents
An agency’s COOP plan focuses on restoring the organization’s MEFs at an
alternate site and performing those functions for up to 30 days before returning to
normal operations. Additional functions, or those performed at a field office level,


4
  Federal Continuity Directive 1 (FCD 1), February 2008, pages 1-2.
5
  Federal Continuity Directive 1 (FCD 1), February 2008, page 2.
6
  Federal Continuity Directive 1 (FCD 1), February 2008, page 2.
7
  Federal Continuity Directive 2 (FCD 2), February 2008, page A-1.
Review of the SEC’s Continuity of Operations Program                    April 23, 2012
Report No. 502
                                        Page 1
                                REDACTED PUBLIC VERSION
may be addressed by a business continuity plan (BCP). 8 “Minor threats or
disruptions that do not require relocation to an alternate site are typically not
addressed in a COOP plan.”9 Standard elements of a COOP plan include:
program plans and procedures; continuity communications; risk management;
vital records management; budgeting and acquisition of resources; human
capital; essential functions; test, training, and exercise; order of succession;
devolution; delegation of authority; reconstitution; and continuity facilities. COOP
plans are specific types of plans that should not be confused with BCPs, Disaster
Recovery Plans (DRP), or Information System Contingency Plans (ISCP). 10

A BCP focuses on sustaining an organization’s mission or business processes
(e.g., payroll) during and after a disruption, and may be written for mission or
business processes within a single unit or may address the entire organization’s
processes. A BCP may be scoped to address only priority functions, and it may
be used for long-term recovery in conjunction with an organization’s COOP
plan. 11

A DRP applies to major (usually physical) “disruptions to service that deny
access to the primary facility infrastructure for an extended period,” and is an
information system-focused plan designed to restore operability at an alternate
site after an emergency. 12 A DRP may be supported by multiple ISCPs and may
support a BCP or COOP plan by recovering supporting systems for mission or
business processes or MEFs at an alternate location. DRPs only address
information system disruptions that require relocation. 13

An ISCP provides procedures for system assessment and recovery following a
system disruption and provides key information needed for system recovery. An
ISCP differs from a DRP primarily in that ISCP procedures are developed for
recovery of a system regardless of its site or location. Once a DRP has
successfully transferred a system to an alternate site, “each affected system
would then use its respective ISCP to restore, recover, and test systems, and put
them into operation.” 14 While COOP plans address national, primary or mission



8
  National Institute of Standards and Technology (NIST) Special Publication (SP) 800-34 Rev. 1,
Contingency Planning Guide for Federal Information Systems, May 2010, page 8, section 2.2.2.
9
  NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010, page 8,
section 2.2.2.
10
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010,
   page 8, section 2.2.2.
11
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010,
   page 8, section 2.2.1.
12
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010,
   page 10, section 2.2.6.
13
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010,
   page 10, section 2.2.6.
14
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010,
   page 10, section 2.2.7.
Review of the SEC’s Continuity of Operations Program                                    April 23, 2012
Report No. 502
                                      Page 2
                              REDACTED PUBLIC VERSION
essential functions, ISCPs address federal information systems and are
mandated by the Federal Information Security Management Act (FISMA). 15
A business impact analysis (BIA) is a key step in the contingency planning
process and is intended to correlate the system with the critical mission or
business process and services provided and, based on that information,
characterize the consequences of a disruption. 16 The three steps typically
involved in the BIA process are: (1) determining mission or business processes
and recovery criticality; (2) identifying resource requirements; and (3) identifying
recovery priorities for system resources. 17

SEC COOP Oversight and Responsibilities
The SEC has a COOP and certain related policies and procedures. The Office of
the Chief Operating Officer, Chief Operating Officer (COO) currently has
responsibility for overseeing the SEC’s agency-wide COOP. The COOP was
previously overseen by the Office of the Executive Director’s former Executive
Director. However, effective July 25, 2011, primary responsibility for COOP was
transferred to the Office of Freedom of Information Act, Records Management,
and Security’s (OFRMS), Office of Security Services (OSS), and the OFRMS
director reports to the COO. 18 OSS develops and manages the central agency-
wide COOP plan which “describes what procedures are taken to sustain SEC’s
critical mission functions for a period of 30 days in the event of a large scale
disaster and disruption.” 19

The COO directed OFRMS/OSS to perform a thorough review of the entire
COOP to ensure that it complies with Federal Emergency Management Agency
guidance. Subsequent to the exit conference for this review, OSS management
informed us that OSS had initiated a self-review of the COOP program in
October 2011 and provided us with a brief outline of its review of the SEC’s
                                                   is an internal          system
that is dedicated to continuity assurance and emergency preparedness. The site
contains links to authoritative guidance for continuity and emergency matters and
is designed to provide SEC divisions/offices with the capability to customize their

15
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010, page
9, section 2.2.7. FISMA, which was enacted as Title III of the E-Government Act of 2002, provides the
framework for securing the federal government’s information technology and requires agency program
officials, chief information officers, privacy officers, and inspector general to conduct annual reviews of the
agency’s information security and privacy programs and report the results to the Office of Management and
Budget (OMB).
16
   NIST SP 800-34 Rev 1, Contingency Planning Guide for Federal Information Systems, May 2010, page
15, section 3.2.
17
   NIST SP 800-34 Rev 1, Contingency Planning Guide for Federal Information Systems, May 2010, pages
15-16, section 3.2.
18
   The Chief Operating Officer was appointed Acting Executive Director on May 3, 2011, and the
Commission approved rule amendments reflecting the consolidation of the Office of the Chief Operating
Officer (OCOO) and Office of the Executive Director in September 2011.
19
   Operating Directive IT Security Business Continuity Management Program, OD 24-04.09 (02.0), August
23, 2011, page 4, section 5d.
Review of the SEC’s Continuity of Operations Program                                            April 23, 2012
Report No. 502
                                         Page 3
                                 REDACTED PUBLIC VERSION
COOP information across a variety of categories. The site further includes Word
files, Excel spreadsheets and pdf files that may be accessed and updated by
individuals who have access to the site. We obtained a spreadsheet from the
       site that identified SEC personnel who were designated as essential.
Subsequent to the end of fieldwork, OFRMS provided OIG with a statement of
work seeking a range of tasks to support the SEC’s COOP, including assistance
in resolving the deficiencies OIG identified in this report, and OSS’s internal
COOP assessment from potential contract vendors.

In addition to the primary COOP role OSS has, the regional offices and the Office
of Information Technology (OIT) play supporting roles in the COOP process.
According to the SEC’s COOP plan, the regional office directors are responsible
for updating the regional office’s COOP plan supplements. OIT has various
functions complementary to the SEC’s COOP processes and is primarily
responsible for developing and managing the technology processes for the
SEC’s business continuity management (BCM) structure. 20 OIT is also
responsible for the DRP and must be in a “position to recover its full main
infrastructure in the event of a total or partial disaster.” 21

Description of the SEC’s COOP Plan and Related Documents
The SEC’s COOP plan consists of an overall high-level Commission COOP plan
document. There is also a regional office base COOP plan document and
separate individual regional office COOP plan supplements. In addition, there is
an overall OIT contingency plan (i.e., the ISCP for the general support system)
and individual Headquarters divisions/offices COOP plan documents. Further,
DRPs and BIAs are prepared for individual systems, and each regional office has
a DRP for its office infrastructure, complementing the base DRP for regional
offices.

The SEC’s COOP plan identifies essential personnel, vital records, lines of
succession and other required information. The SEC identified       essential
personnel under its COOP plan and established relocation sites for SEC


                                                                    The overall
Commission COOP plan document was updated in April 2008 and April 2010,
and the most recent version of the document on the          is a draft document
that is dated October 2011. The regional office COOP supplements and
individual Headquarters division and office COOP plans have various dates and
have not been recently updated.


20
   Operating Directive, IT Security Business Continuity Management Program, OD 24-04.09 (02.0), August
23, 2011, page 4, section 5f.
21
   Disaster Recovery Planning Policy, OIT-00003-001.0, August 6, 2002.
Review of the SEC’s Continuity of Operations Program                                     April 23, 2012
Report No. 502
                                       Page 4
                               REDACTED PUBLIC VERSION
In addition to its COOP plan, the SEC has a separate pandemic influenza
preparedness plan (pandemic plan), which incorporates by reference the SEC’s
COOP plan as it may be amended from time to time. The SEC’s pandemic plan
focuses on protecting the health of SEC employees, while maintaining agency
operations during a pandemic. 22

Overview of the SEC’s Network and Locations

The SEC is an independent regulatory agency and has the statutory
responsibility to oversee and regulate the nation’s securities markets and
participants. The SEC employees and contractors rely extensively on the SEC’s
network to perform their duties. SEC’s network infrastructure includes a general
support system for its
                                                                  (to serve as the
                                    and its 11 regional offices that are located
throughout the country.

The SEC network is an integrated client/server system that is comprised of local
area networks, a metropolitan area network, and a wide area network. The wide
area network provides connectivity to SEC sites throughout the continental
United States. OIT owns and operates the SEC’s various network subsystems,
which are located at various facilities that the SEC leases. The SEC’s network
provides services to both internal and external customers (e.g., electronic filers),
who use the network for their business applications. The SEC’s network
provides the necessary security services to support these applications.

The SEC’s wide area network is a dynamic virtual private network that connects
the regional offices with the                       and Alternate Data Center. The
virtual private network environment uses dynamic technology, which allows the
regional offices to connect directly with each other. This solution alleviates the
need for all traffic between sites to pass through the Alternate Data Center or
                      before arriving at the destination site. The metropolitan area
network connects the                          Alternate Data Center, and
Headquarters locations, and contains redundant aspects (i.e., the ability to use
multiple paths) to prevent failure in any single location.

The network infrastructure provides the computer environment for all the
applications that are used to support the SEC’s business functions and mission.
Some of these applications are designated as major applications in the SEC’s
reports to the Office of Management and Budget (OMB) under FISMA. In its

22
   “A pandemic occurs when a novel strain of influenza virus emerges that has the ability to infect and be
passed between humans. Because humans have little immunity to the new virus, a worldwide epidemic, or
pandemic can ensue.” National Strategy for Pandemic Influenza Implementation Plan, May 2006, page 1.
23
   The SEC’s regional offices are located in Atlanta, Boston, Chicago, Denver, Los Angeles, Miami, New
York, Philadelphia, Salt Lake, and San Francisco.
Review of the SEC’s Continuity of Operations Program                                        April 23, 2012
Report No. 502
                                        Page 5
                                REDACTED PUBLIC VERSION
Fiscal Year 2011 FISMA report to OMB, the SEC listed a total of
                               24

                                           at outside entities (both federal and
private). The SEC’s internally hosted systems are
                   and the majority of the systems have a                     at
the                        Additionally,               are run daily, weekly and
monthly, based upon schedules for incremental data, full data, and full system


While the SEC’s regional offices have systems that are supported by its network,
each regional office has a                                                 The
regional offices still use              as the primary means of recovering critical
regional office servers and data. The regional offices’ data is also replicated in
real time to servers located at designated
The replication            act as a secondary means of restoring the regional
offices’ data and are generally used only following a catastrophic event that
severely damages or destroys a regional office’s network.

SEC Policies and Procedures Relating to COOP

The SEC’s policies and procedures relating to the COOP are currently all OIT
policy documents such as: Operating Directive 24-0.09 (02.0), Information
Technology (IT) Security Business Continuity Management Program, dated
August 23, 2011; Implementing Instruction 24-04.09.01 (02.0), Business Impact
Analysis, dated August 22, 2011; Disaster Recovery Planning Policy, OIT-00003-
001.0, dated August 6, 2002, and Disaster Recovery Planning Procedures, OIT-
00047-001.0, dated February 4, 2003.

According to Operating Directive 24-04.09, “[b]ased on federal requirements, the
SEC has developed an agency-wide program that has policies, processes, and
procedures to address the information and information system security
requirements needed for business continuity in the event of a disruption.” 26 The
Operating Directive states that the SEC has created a BCM framework of plans
to centralize plan development and ensure that all plans are consistent and
standardized, address applicable information technology security requirements,


24
  SEC FISMA submission to OMB, October 14, 2011. OMB Memorandum for Heads of Executive
Departments and Agencies on FY 2011 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, M-11-33, September 14, 2011, provides that all of an
agency’s information systems should be included as part of the agency’s FISMA report. M-11-33, FY 2011
Frequently Asked Questions on Reporting for the Federal Information Security Management Act and Agency
  ivacy management, page 3, Answer to Question 8.



  Operating Directive IT Security Business Continuity Management Program, OD 24-04.09 (02.0), August
23, 2011, page 3, section 5b.
Review of the SEC’s Continuity of Operations Program                                   April 23, 2012
Report No. 502
                                      Page 6
                              REDACTED PUBLIC VERSION
and identify priorities for training, testing, exercise, and maintenance. 27 The
Operating Directive further provides that “[t]he BCM framework is a suite of plans
used to prepare its response, recovery, and restoration of business processes in
the event of a disruption, and that plans for business continuity are grouped
under continuity of operations processes, business processes, and technology
processes.”28 It notes that “[m]any of these plans have dependencies and must,
therefore, be synchronized,” and that “[p]lans to recover business processes at
high levels are considered to be subsets of the continuity of operations
processes.”29

Operating Directive 24-04.09, describes the agency’s COOP plan as directing “its
focus on supporting the SEC’s executive leadership and essential organizational
structure,” and references various supporting plans, such as the BRP, that deal
with immediate crisis operations and communications throughout the COOP
plan’s activation. 30 The Operating Directive further states that each functional
office addresses functional level business processes that directly support the
COOP plan in a contingency plan, and notes that examples of functional level
business processes include human resources, procurement, public relations,
facilities management, and legal and other services based upon the results of the
agency-wide BIA. 31 According to the Operating Directive, critical business
processes at the organizational unit and regional levels are maintained through
BCPs, which serve as a primary input in the COOP plan. It also states that BCPs
are managed by the organizational units that own the business processes and/or
facilities, under the approval of the COOP plan coordinator. 32

As noted above, OIT has primary responsibility for developing and managing the
SEC’s technology processes for the BCM structure. Operating Directive 24-
04.09 provides that each major application and general support system 33 in the
SEC has a supporting Information Technology Contingency Plan (ITCP) (also

27
   Operating Directive IT Security Business Continuity Management Program, OD 24-04.09 (02.0), August
23, 2011, page 3, section 5c.
28
   Operating Directive IT Security Business Continuity Management Program, OD 24-04.09 (02.0), August
23, 2011, pages 3-4, section 5c.
29
   Operating Directive IT Security Business Continuity Management Program, OD 24-04.09 (02.0), August
23, 2011, pages 3-4, section 5c.
30
   Operating Directive IT Security Business Continuity Management Program, OD 24-04.09 (02.0), August
23, 2011, pages 4, section 5d.
31
   Operating Directive IT Security Business Continuity Management Program, OD 24-04.09 (02.0), August
23, 2011, page 4, section 5d.
32
   Operating Directive IT Security Business Continuity Management Program, OD 24-04.09 (02.0), August
23, 2011, page 4, section 5e. Our review did not disclose that any one individual is currently performing the
function of the COOP plan coordinator. As noted above, primary COOP responsibility transitioned from the
former Office of the Executive Director to the OCOO in 2011 and the agency’s COOP program is under
review.
33
   A major application is define as one “that requires special attention to security due to the risk and
magnitude of the harm resulting from the loss, misuse, unauthorized access to, or unauthorized modification
of, the information in the application.” The general support system interconnects “information resources
under the same direct management control that share common functionality.” Operating Directive IT
Security Business Continuity Management Program, OD 24-04.09 (02.0), August 23, 2011, page 2.
Review of the SEC’s Continuity of Operations Program                                         April 23, 2012
Report No. 502
                                        Page 7
                                REDACTED PUBLIC VERSION
referred to as an ISCP) that includes detailed procedures for responding,
recovering, and restoring information systems that are damaged or destroyed in
the event of a disruption. According to the Operating Directive, the ITCP
addresses emergency situations covered in a DRP for an information system. 34

Operating Directive 24-04.09, further provides that each ITCP is supported by a
BIA, and that “[t]he result of the BIA is used to determine overall contingency
requirements and priorities.” 35 Implementing Instruction 24-04.09.01, Business
Impact Analysis, provides that the BIA is an essential component of the SEC’s
BCM program and notes that the”[t]he BIA links specific system components with
the critical services they provide, identifying the consequences that disruption of
the system’s availability would have on the SEC mission.” 36 The Implementing
Instruction describes the four phases of the BIA process: pre-planning and
coordination; information collection and research; identification of critical
information technology assets; identification of allowable outage and recovery
times; and development of recovery priorities; and post BIA activities and
maintenance. 37 Under the Implementing Instruction, recovery time objectives for
systems are determined based upon the following:

         1. whether the availability of the information technology systems in
            question can be recovered partially or must be totally restored in
            order for mission-critical processes to continue; and
         2. balancing the cost of information system in operability against
            the cost of the resources required to restore the information
            system. 38

In addition, the SEC’s Disaster Recovery Planning Policy, OIT-00003-001.0, is
intended to ensure that OIT is in a position to recover its full infrastructure 39 in the
event of a disaster. The policy “supports a             strategy of mirroring and
critical server rebuilds, as determined by OIT management,” and “sets forth a
strategy requiring reallocation and rebuilding of OIT resources in order of
criticality.” 40 Further, under this policy, the OIT Disaster Recovery Specialist is
required to ensure that disaster recovery related issues are addressed, provide
disaster recovery guidance to project management and staff, coordinate and/or

34
   Operating Directive IT Security Business Continuity Management Program, OD 24-04.09 (02.0), August
23, 2011, pages 4-5, section 5f.
35
   Operating Directive IT Security Business Continuity Management Program, OD 24-04.09 (02.0), August
23, 2011, pages 4-5, section 5f.
36
   Implementing Instruction Business Impact Analysis, II 24-04.09.01 (02.0) August 22, 2011, pages 2,
Section 5a.
37
   Implementing Instruction Business Impact Analysis, II 24-04.09.01 (02.0), August 22, 2011, pages 2-4,
Section 5c.
38
   Implementing Instruction Business Impact Analysis, II 24-04.09.01 (02.0), August 22, 2011, page 3
Section 5c(4).
39
   The term ”infrastructure” refers to the underlying technological components that constitute an
organization’s enterprise architecture; it includes hardware, operating systems, shared storage, data/voice
communications, database, developments of maintenance tools, and application software.
40
   Disaster Recovery Planning Policy, OIT-00003-001.0, August 6, 2002, page 1, Section 2.
Review of the SEC’s Continuity of Operations Program                                         April 23, 2012
Report No. 502
                                        Page 8
                                REDACTED PUBLIC VERSION
conduct BIAs, coordinate and validate disaster recovery testing, and ensure that
disaster recovery information is maintained in the
                                     41



Testing Programs for COOP, DRP and Pandemic Plans
FCD 1 requires all agencies to plan, conduct, and document periodic tests,
training, and exercises to prepare for continuity emergencies and disasters,
identify deficiencies, and demonstrate the viability of their COOPs. 42 Appendix K
of FCD 1, “Test, Training, and Exercises (TT&E) Program,” lists the following
elements that must be included in an agency’s testing program:

        1. Annual testing of alert, notification, and activation procedures for
           continuity personnel and quarterly testing of such procedures for
           continuity personnel at agency headquarters.
        2. Annual testing of plans for recovering vital records (both
           classified and unclassified), critical information systems,
           services, and data.
        3. Annual testing of primary and             infrastructure systems
           and services (e.g., power, water, fuel) at alternate facilities.
        4. Annual testing and exercising of required physical security
           capabilities at alternate facilities.
        5. Testing and validating equipment to ensure the internal and
           external interoperability and viability of communications
           systems, through monthly testing of the continuity
           communications capabilities outlined in Annex H (e.g., secure
           and non-secure voice and data communications).
        6. Annual testing of the capabilities required to perform an
           agency’s MEFs, as identified in the business process analysis
           (BPA).
        7. Conducting annual testing of internal and external
           interdependencies identified in the agency’s continuity plan, with
           respect to performance of an agency’s and other agencies’
           MEFs.
        8. A process for formally documenting and reporting tests and their
           results.
        9. Reporting the test results as directed by the Department of
           Homeland Security (DHS)/Federal Emergency Management
           Agency (FEMA). 43

In addition, the National Strategy for Pandemic Influenza Implementation Plan,
issued by the Homeland Security Council in May 2006, noted as follows:

41
   Disaster Recovery Planning Policy, OIT-00003-001.0, August 6, 2002, page 2, Section 7b.
42
   Federal Continuity Directive 1 (FCD 1), February 2008, page 10.
43
   Federal Continuity Directive 1 (FCD 1), February 2008, page 62, Annex K, Testing section.
Review of the SEC’s Continuity of Operations Program                                           April 23, 2012
Report No. 502
                                        Page 9
                                REDACTED PUBLIC VERSION
“Testing, training, and exercising of COOP capabilities are essential to
assessing, demonstrating, and improving the ability of organizations to execute
their COOP plans and programs during an emergency. Pandemic influenza
COOP plans should test, train, and exercise sustainable social distancing
techniques that reduce person-to-person interactions within the workplace.”44

The SEC has annual testing schedules for its COOP and DRP. As part of a
government-wide continuity exercise referred to as “Eagle Horizon,” the SEC’s
last COOP plan testing was performed on June 23, 2011. Overall DRP testing of
selected systems was conducted for the Operations Center in June and
November 2011, and quarterly data integrity testing is performed as part of the
DRP. Regional office DRP testing is conducted on a staggered scheduled over a
three-year period. The SEC last conducted a pandemic flu exercise in 2007.

Objectives
The overall objective of TWM’s review was to determine whether the SEC had a
viable COOP, BCP, and DRP that sufficiently supported its operations at its
Headquarters, Operations Center, and 11 regional offices. Further, the review
sought to determine if the Commission is adequately prepared to perform
essential functions during business continuity or disaster recovery event resulting
from human/natural disasters, national emergency, or technological events which
could impact the Commission’s ability to continue mission-critical and essential
functions. The sub-objectives of our review were to:

       •   Evaluate the Commission’s pandemic plan to ensure it is formal,
           documented, well-communicated, has been tested at regular
           intervals, and meets the objectives of the National Strategy for
           Pandemic Influenza: Implementation;
       •   Assess the Commission’s implementation and testing of its
           pandemic plan;
       •   Determine the Commission’s plans for protecting its employees and
           contractors during a pandemic occurrence; and
       •   Evaluate the Commission’s plans for sustaining essential functions
           during high rates of employee absenteeism.




44
     National Strategy for Pandemic Influenza Implementation Plan, May 2006, page 167.
Review of the SEC’s Continuity of Operations Program                                     April 23, 2012
Report No. 502
                                         Page 10
                                 REDACTED PUBLIC VERSION
             Findings and Recommendations

Finding 1: SEC’s COOP Policies, Procedures and
Documents Require Updating, More
Cohesiveness, and Inclusion of Missing Elements
       SEC’s COOP policies and directives are incomplete and
       outdated. In addition, the SEC’s COOP plan and an array of
       supplemental documents are outdated, have missing
       elements, and do not correlate with the SEC business needs
       identified under FISMA. Also, the current overall COOP plan
       document is a draft.

SEC COOP Policies, Directives and Documents Are Out of Date
and Incomplete

While the SEC does have a COOP function and plan (including relocation sites
and testing) in place, the program needs overall improvements. In particular, the
SEC’s COOP policies, directives and documents are: (a) out-of-date and
incomplete, (b) not comprehensive; and (c) currently not being followed in some
respects.

Currently, the SEC’s COOP policies and procedures are limited to OIT-issued
policy documents. OIT’s policies and procedures that are related to COOP
include Operating Directive 24-24.09 (02.0), Information Technology (IT)
Security Business Continuity Management Program, dated August 23, 2011;
Implementing Instruction 24-04.09.01(02.0), Business Impact Analysis, dated
August 22, 2011; Disaster Recovery Planning Policy, OIT-00003-001.0, dated
August 6, 2002; and Disaster Recovery Planning Procedures, OIG-00047-001.0,
dated February 4, 2003. The Disaster Recovery Planning Policy and Procedures
documents are clearly outdated. Moreover, while Operating Directive 24-04.09
was revised in 2011, it is nonetheless outdated in certain respects. For example,
it refers to the Office of the Executive Director, which no longer exists. Further,
as noted below, it discusses BCPs and ITCPs in detail, even though the SEC
decided not to prepare these types of documents for its systems because they
believes the necessary elements are already included in the DRPs and BIAs.

The COOP plan documentation in place for the SEC’s



              are out-of-date. Further, these documents did not have signatures
Review of the SEC’s Continuity of Operations Program                   April 23, 2012
Report No. 502
                                   Page 11
                           REDACTED PUBLIC VERSION
showing that the plans had been reviewed and were approved. Specifically, we
were provided with COOP plan versions for 2008 and 2010, and a draft version
that was dated October 2011. None of the documents were signed or appeared
to have been approved. Further, the supplemental plan information did not
change between the 2008 and 2010 versions, and continued to be outdated in
the 2011 draft.

In addition to requiring updating and approval, the SEC’s COOP documents need
improvement in both their content and organization. The overall SEC COOP
plan is a high-level COOP document that relies on all divisions/offices and
regional offices to maintain and update their own COOP plans independently.
The COOP plan documentation also includes an OIT contingency plan for
systems used by the COOP, which is out-of date and incomplete. Further, the
overall 2011 draft COOP plan indicates that it supersedes the April 2008 COOP
plan, rather than the April 2010 version.

The draft overall COOP plan states that the SEC’s divisions/offices and regional
offices are required to report any changes to their supplemental plans to the
COO. We found, however, that the supplemental plans are not being updated;
the documents in question are dated from 2005 to 2008. Additionally, the draft
overall COOP plan references the Office of Economic Analysis which merged
with the former Office of Risk Assessment, and other functions to become the
Division of Risk, Strategy, and Financial Innovation in September 2009.

   regional offices                                                       did not have supplemental
COOP plans. Further,                   regional offices
     and

                                   COOP roles and responsibilities or identified who
will perform those roles and responsibilities. While the overall COOP plan listed
alert levels, it contained no discussion of     for the
There was no indication that any scenarios were reviewed or tested, but rather
only a general discussion of                    were



Further, we found that essential personnel information in the COOP supplements
has not been properly maintained and is not up-to-date. 45 In addition, while the
overall COOP plan referenced key SEC personnel who comprise the
                          it was not clear from the documentation whether the
     was necessarily the same as the essential personnel listed in the
supplements.


45
 Essential personnel lists are maintained on the             and can be used by SEC divisions and offices to
maintain and update listings of their essential personnel.
Review of the SEC’s Continuity of Operations Program                                         April 23, 2012
Report No. 502
                                         Page 12
                                 REDACTED PUBLIC VERSION
Regional Office and Division Lines of Succession Outdated. The
Headquarters COOP plan requires the line of succession to be
       for the SEC’s divisions, offices and regional offices. Further, each division
and office head must establish an intra-office succession roster that is also at
                   for each critical office position or responsibility and ensure that
this roster is effectively communicated within the division/office, to the Office of
the Secretary, and other offices as necessary. The information is required to be
maintained as part of the divisions/office’s critical documents, accessible
remotely in electronic form. We found that this required information was out-of-
date and is not being properly maintained. The documents were dated 2004 to
2008, and many of the personnel listed in the documents were no longer in the
SEC telephone registry and have likely left the agency.

Division/Office and Regional Office Vital Records Are Not Complete or Up
to Date. The term “vital records” includes “information systems and applications,
electronic and hardcopy documents, references, and records needed to support
PMEFs and MEFs during a continuity event.” 46 Categories of vital records
include emergency operating records, and rights and interests records. 47 The
SEC has included vital records information in its COOP plan; the overall plan
includes an appendix, which is based on the information provided in the
individual division/office and regional office COOP supplements.

The SEC divisions/offices and regional offices have included in their COOP
supplemental plans, spreadsheets with tabs that list their vital records. Our
review of these documents disclosed that they were templates that have
incomplete content. Specifically, we found that the spreadsheets for all of the
regional offices and 2 of the 5 randomly selected divisions/offices were missing
key information. Further, the data listed in the supplement documents does not
match the information contained in the OIT contingency plan COOP document.
The spreadsheets were dated between 2004 and 2008 and have not been
updated since then.

The vital records that were listed referenced both hard copy and electronic
documents and drive locations for the data. However, the vital records
spreadsheet supplements do not indicate specifically where the information is
maintained, who is responsible for collecting it in the event of COOP activation,
or how the information is to be accessed if the facility is not accessible. They
also do not identify how hardcopy-only data should be recovered or stored.

In addition to the individual division/office and regional office vital records data,
the main Headquarters COOP plan included a section on vital records. However,
information for six divisions/offices


46
     Federal Continuity Directive 1 (FCD 1), February 2008, Annex I, page I-1.
47
     Federal Continuity Directive 1 (FCD 1), February 2008, Annex I, page I-1.
Review of the SEC’s Continuity of Operations Program                             April 23, 2012
Report No. 502
                                           Page 13
                                   REDACTED PUBLIC VERSION
              were not specified. In addition, the SEC has not defined a single
location where all division/office and regional office vital records requirements
should be backed up and verified.

Headquarters and Operations Center Overall DRPs Are Not Present Within
the COOP documentation. An organization’s DRP “applies to major, usually
physical disruptions to service that deny access to the primary facility
infrastructure for an extended period.” 48 A DRP is an information system-
focused plan designed to restore operability of the target system, application, or
computer facility infrastructure at an alternate site after an emergency. The DRP
plan may be supported by multiple information system contingency plans to
address recovery of impacted individual systems once the alternate facility has
been established. 49 Our review of the SEC’s various COOP documents revealed
that there is no specific DRP for SEC’s Headquarters and the Operations Center.
Some DRP items are included in the SEC’s overall COOP document and OIT
contingency plan; however, these documents are under revision and in draft
form.

Individual System and Regional Office DRPs are Outdated, In Draft Form
and/or Incomplete. During our review, we identified numerous problems with
the DRPs for individual systems. Of the                systems reviewed, we found
that             hosted systems did not have DRPs, and                       hosted
                               50
systems did not have DRPs. Further,             system DRPs were in draft form, and
     DRPs were outdated. Moreover, all the DRPs we reviewed were missing
some traditional elements (e.g., risk management, budget and acquisition, order
of succession, concurrent processing, recovery period, access control policy and
procedures, alternate facilities, alternate site travel logistics, vital records,
restoration, personnel and vendor contract lists, relocation of families, service
level agreements, and additional notification procedures).

With respect to our review of regional office DRPs (as well as the overall COOP
plan document and the OIT contingency plan), a detailed list of issues we
identified with those documents is included at Appendix II.

The SEC Does Not Prepare BCPs or ISCPs for its Information Systems.
BCPs address sustaining an organization’s mission or business processes and
the information systems that support those mission or business processes during
and after a significant disruption. BCPs are often developed at the organization’s



48
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010, page
10, section 2.2.6.
49
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010, page
10, section 2.2.6.
50
   Appendix III includes a list of the systems for which no DRP had been prepared.
Review of the SEC’s Continuity of Operations Program                                   April 23, 2012
Report No. 502
                                      Page 14
                              REDACTED PUBLIC VERSION
field level or for mission or business processes that are not prioritized as mission
essential. 51

Our review determined that the SEC only prepares DRPs and BIAs for its
applications and does not prepare BCPs or ISCPs, even though Operating
Directive 24-04.09, requires them to be prepared and indicates that BCPs serve
as a primary input in the COOP plan. 52 OIT staff stated that BCPs and ISCPs
were not needed because the contents of the BIAs and DRPs included the
components of a BCP or ISCP. However, as described below, we found that
some BCP elements were missing from the SEC’s COOP documents.

Missing Business Continuity Plan Elements. Our review found that some
BCP elements (e.g., budget and acquisition, concurrent processing) were not
addressed in the SEC’s DRPs and BIAs. 53 A DRP refers to an information
system-focused plan that is designed to restore operability of one or more
information systems at an alternate site after a major disruption that usually
causes physical damage to the original data center. 54 We determined that the
SEC’s current DRP and BIAs do not address the aspects of BCPs, thus giving
rise to the possibility of failure should an actual event occur. 55 According to OD
24-04.09, BCPs are be managed by the organizational units that own the
business processes and/or facilities, under the approval of the COOP
coordinator. 56

We also found that the SEC’s COOP documents lack the critical tie to the SEC’s
business and mission essential functions. While the SEC prepared BIA
documents, these documents do not necessarily reflect what is actually needed
for agency activities that must be performed immediately versus activities that
are not needed immediately, and support the agency’s mission after the fact.
Further, the information contained in the SEC’s BIAs does not coincide with the
reporting under FISMA regarding the availability needs for the agency’s systems.
One example of a business function that has an immediate requirement is the
SEC’s                        , which is a collection of software

51
   NIST SP 800-34 Rev 1, Contingency Planning Guide for Federal Information Systems, May 2010,
Appendix C, page C-1.
52
   Operating Directive IT Security Business Continuity Management Program, OD 24-04.09 (02.0), August
23, 2011, page 4, section 5e. The policy further indicates that SEC division directors, office heads, and
regional directors are responsible for organizational or regional level BCP. Operating Directive 24-04.09
(02.0), IT Security Business Continuity Management Program, August 23, 2011, page 6, section 6.4, section
5e.
53
   The BCP elements that we used in reviewing the SEC’s DRPs and BIAs were based upon best practices
derived from a variety of sources including, among others, NIST 800-34, the Interagency Statement on
Pandemic Planning, as well as SEC Operating Directive 24-04.09.
54
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010, page
C-1, Appendix C, paragraph 3.
55
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010,
Appendix C, paragraph 3.
56
   Operating Directive IT Security Business Continuity Management Program, OD 24-04.09 (02.0), August
23, 2011, page 4, section 5e.
Review of the SEC’s Continuity of Operations Program                                      April 23, 2012
Report No. 502
                                       Page 15
                               REDACTED PUBLIC VERSION
                                                                                           This critical
real-time function has not been defined in the SEC’s BIAs.

TWM examined all system DRPs and BIAs and found the date it was prepared
and the date reviewed. We then randomly selected          systems to conduct a
detailed review of the documents to determine whether traditional elements were
included. We found missing elements including the                           where
system specific documentation and scripts are located, background information,
validation and functionality testing processors, alternate processing procedures,
business process specific data input/output diagrams, and software license
requirements. A list of the specific issues we identified based upon the
documents we reviewed is at Appendix III.

Business Impact Analysis Missing, Outdated, or Incomplete. While we
determined that a BIA document was present for all internally hosted systems,
some of the BIAs were outdated and/or incomplete. In particular, we found that
the completed BIAs for      systems are three years and are, therefore, are
considered out-of-date. Further, we found that BIAs had not been updated to
reflect the fact that the SEC’s former district offices are now regional offices. We
also found there were no BIAs for the       FISMA-reportable              hosted
systems.

Our detailed review of the BIA’s for     selected systems revealed that they
lacked traditional BIA elements. For example we found the following sections
has missing information such as:        were missing the Background section;
three were missing the Resources section; one was missing the Process
Criticality section; six were missing the Threats and Hazards section;       were
missing Cost Balance Point section;           were missing the MEF Impact
section;          were missing the Threat Risk Value section; and       were
missing the Recovery Priority Objective section. Further, there was no indication
that the BIAs had been reviewed or approved, and         system’s BIA Data
Collection forms did not have a date indicating when the forms were completed.

Integration of Pandemic Planning into COOP Documents Is Needed.
Pandemic influenza “is a global outbreak of disease that occurs when a new
influenza virus emerges in human populations and causes serious illness.
Because there is little natural immunity, the disease can spread easily from
person to person, rapidly moving across the country and around the world.” 59

57
   We were informed that management has recently purchased a license for an Internet service option for
the                        however, this option is not yet operational.
58
   In contrast to the immediate requirement for the
                               could be performed manually during an unscheduled event and, therefore,
would not have the same recovery needs or timeline as an essential activity requiring immediate attention.
59
   NIST SP 800-34 Rev 1, Contingency Planning Guide for Federal Information Systems, May 2010,
Appendix D, page D-2. In addition, FCD 1 provides that continuity planning should include “planning for the
Review of the SEC’s Continuity of Operations Program                                        April 23, 2012
Report No. 502
                                        Page 16
                                REDACTED PUBLIC VERSION
According to the Contingency Planning Guide for Federal Information Systems,
“[c]ommon strategies to protect personnel health during a pandemic outbreak
include stricter hygiene precautions and reducing the number of personnel
working in close contact with one another through implementation of ‘social
distancing.’ Approved telework arrangements facilitate social distancing through
working at home while sustaining productivity. Government-run telework sites
are also available to federal employees who cannot work from home or the
office.”60

According to pandemic guidance, a BCP “should address pandemics and provide
for a preventive program, a documented strategy scaled to the stages of a
pandemic outbreak, a comprehensive framework to ensure the continuance of
critical operations, a testing program and an oversight program to ensure that the
plan is reviewed and updated.” 61 As noted above, OIT only creates DRPs and
BIAs for SEC applications and do not create BCPs. We found that only two of
the regional offices’ COOP plan supplements                            included
any pandemic information.

While the SEC has a pandemic plan in place, the lack of a BCP addressing
pandemic events could negatively impact the implementation of the pandemic
plan. Further, the overall SEC COOP plan indicates that it includes events
related to pandemic, but it does not contain specific information related to
pandemic planning or impact on operations. Further, we found that there is no
specific mention in the pandemic plan of alternate procedures for credentialing
and hiring during a pandemic or how these functions would be accomplished
remotely. If the systems required to be accessed remotely were non-operational,
credentialing and hiring would have to be accomplished using manual processes
until the systems were available and then reconstructed in the electronic system,
which might prove to be difficult during a pandemic event.

Review and Approval Not Indicated on COOP Program Documents. FCD 1
outlines the requirements to support the continuity program management cycle,
noting that “agencies will develop a continuity multiyear strategy and program
management plan that provides for the development, maintenance, and the
annual review of continuity capabilities.” 62 These requirements include
designating and reviewing MEFs and PMEFs, as applicable, and defining both
short-term and long-term goals and objectives for plans and procedures. 63

challenges posed by extended events (like a pandemic) that occur in repeated waves.” Federal Continuity
Directive 1 (FCD 1), February 2008, Annex A, page A-4
60
   NIST SP 800-34 Rev 1, Contingency Planning Guide for Federal Information Systems, May 2010,
Appendix D, page D-2. We were informed that in the past, the SEC Executive Director had approved
telework for SEC employees during any officially recognized pandemic, with the concurrence of an
employee’s supervisor.
61
   Interagency Statement on Pandemic Planning, page 1. (This is joint guidance issued for financial
institutions by the Federal Financial Institutions Examination Council agencies.)
62
   Federal Continuity Directive 1 (FCD1), February 2008, page 6.
63
   Federal Continuity Directive 1 (FCD1), February 2008, page 6.
Review of the SEC’s Continuity of Operations Program                                      April 23, 2012
Report No. 502
                                       Page 17
                               REDACTED PUBLIC VERSION
Based upon our review of the DRP and BIA documents for the individual
systems, we determined that the documentation did not evidence review and
approval at least annually. We also found that the SEC’s Pandemic Plan did not
indicate the date it was reviewed.

       Recommendation 1:

       The Office of the Chief Operating Officer should ensure that the Office of
       Freedom of Information Act, Records Management and Security
       completes its review of the agency-wide continuity of operations program
       (COOP) to ensure the Commission’s COOP is comprehensive, cohesive,
       and in compliance with federal guidance.

       Management Comments. OFRMS concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OFRMS concurred with this
       recommendation.

       Recommendation 2:

       The Office of Freedom of Information Act, Records Management, and
       Security should revise and update the Commission’s continuity of
       operations program policies and procedures to ensure they are
       comprehensive, complete, and up-to-date.

       Management Comments. OFRMS concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OFRMS concurred with this
       recommendation.




Review of the SEC’s Continuity of Operations Program                  April 23, 2012
Report No. 502
                                   Page 18
                           REDACTED PUBLIC VERSION
       Recommendation 3:

       The Office of Freedom of Information Act, Records Management, and
       Security (OFRMS) and Office of Information Technology (OIT), in
       conjunction with the program divisions/offices and regional offices, should
       update, revise and finalize all continuity of operations program (COOP)
       documents, including the overall Headquarters COOP plan, individual
       division/office COOP plans, regional office COOP supplements, disaster
       recovery plans, business continuity plans and business impact analyses,
       and pandemic plans supplements. OFRMS and OIT should ensure these
       documents are complete and include all the necessary elements, and that
       they properly define the Commission’s essential functions. In addition,
       processes should be implemented to ensure annual review and approval
       of these documents.

       Management Comments. OFRMS and OIT concurred with this
       recommendation. See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OFRMS and OIT concurred with this
       recommendation.

       Recommendation 4:

       The Office of Freedom of Information Act, Records Management, and
       Security, in conjunction with program and regional offices, should ensure
       that vital records and lines of succession are properly identified,
       documented and readily available during continuity events.

       Management Comments. OFRMS concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OFRMS concurred with this
       recommendation.




Review of the SEC’s Continuity of Operations Program                  April 23, 2012
Report No. 502
                                   Page 19
                           REDACTED PUBLIC VERSION
Finding 2: Network Weaknesses Could Affect the
SEC’s Continuity of Operations and Disaster
Recovery Plans
       The review identified instances in which information feeds
       and power distribution throughout the SEC network could fail
       were a disruption to occur.

Robust Network and Power Redundancy Are Not Complete
The absence of                (redundancy) for elements or parts of a system
may result in a failure that could disable the entire system. An appropriate
level of redundancy is necessary for any system with a goal of high
availability or reliability, including business practice, software application,
or other industrial systems. Our review revealed




                        Information Feeds Go Through
                  The SEC’s




                information feeds located at the

                                                                         The
initial information




Review of the SEC’s Continuity of Operations Program                      April 23, 2012
Report No. 502
                                   Page 20
                           REDACTED PUBLIC VERSION
       Recommendation 5:

       The Office of Information Technology (OIT), in conjunction with the
       primary program information users, should identify
                                                                    at the
       alternate locations should             be unavailable. Further, OIT
       should review the Securities and Exchange Commission’s (SEC) network
       and topology to ensure there are


       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 6:

       The Office of Information Technology should ensure proper power
       distribution



       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.



Review of the SEC’s Continuity of Operations Program               April 23, 2012
Report No. 502
                                   Page 21
                           REDACTED PUBLIC VERSION
        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.


Finding 3: The COOP Systems’ Availability
Categorization and Utilization Should be
Reviewed
        Our review found inconsistencies between the availability
        categorization of the systems reported to OMB under FISMA
        and the recovery time objectives established for SEC COOP
        systems.

SEC Recovery Time Objectives are Not Consistent With FISMA’s
System Categorization for Availability
Effective contingency planning begins with the development of an organization
contingency planning policy and subjection of each information system to a BIA.
This facilitates the prioritization of systems and processes based on the Federal
Information Processing Standard (FIPS) 199 impact level (utilized under FISMA)
and develops priority recovery strategies for minimizing loss. FIPS 199 provides
guidelines for determining information and information system impact to
organizational operations and assets, individuals, other organizations, and the
nation through a formula that examines the three security objectives of
confidentiality, integrity, and availability. 65 The highest rated of the three security
objectives determines the overall security categorization for the system of high,
moderate, or low, based upon the definitions contained in FIPS 199. 66

By reviewing the FISMA systems that the SEC reported to OMB for 2011, we
determined that most of the SEC’s FISMA-reportable systems have a system
security categorization of moderate, which indicates that the goal of system
availability is no more than moderate and, in some cases, may be low.
Recovery time objectives are the overall length of time an information system’s
components can be in the recovery phase before the organization’s mission or
business functions are negatively impacted. Our review found that some
individual system BIAs indicated a recovery time objective of               while
those same systems have only a security categorization of moderate under
FISMA. Further, we found FISMA security systems categorized as moderate that
were listed with recovery time objective of             in the COOP BIA matrix

65
   NIST SP 800-34 Rev 1, Contingency Planning Guide for Federal Information Systems, May 2010, page 5,
section 2.1.
66
   NIST SP 800-34 Rev 1, Contingency Planning Guide for Federal Information Systems, May 2010, page 6,
section 2.1.
Review of the SEC’s Continuity of Operations Program                                   April 23, 2012
Report No. 502
                                      Page 22
                              REDACTED PUBLIC VERSION
recovery time objective document, even though the BIA stated a different
recovery time objective for those systems. For systems with a moderate to low
availability as indicated by an overall FISMA security categorization of moderate,
SEC COOP established recovery time objectives may be overly aggressive and
could result in unnecessary expense in documentation, testing, and
infrastructure. Finally, our examination of documents provided by SEC personnel
reflecting their review of the externally hosted systems included in the SEC’s
FISMA-reportable systems identified some instances where the availability rating
was either low or not stated, while the SEC reported these systems under FISMA
as having an availability rating of moderate.

Recovery Time Objectives Need to Be Consistent with System
Functionality. As noted above, most SEC FISMA-reportable systems have a
system security categorization of moderate. Moderate availability does not
typically indicate a recovery time objective of               such a short recovery
time is usually appropriate for systems with a high availability requirement. We
also found COOP documentation stating that communications and information
systems would be available within             at the alternate location after plan
activation and capable of supporting the continuation of SEC essential functions
for a period of up to 30 days, or until normal operations resume. An availability
period of            does not correspond with individual system recovery time
objectives of

SEC management indicated that availability goals for SEC systems are defined
based on FCD 1 and the SEC’s definition of essential, mission essential, and
program mission essential functions. These availability goals should be
consistent with the FISMA ratings and BIAs for the systems. However, we found
SEC systems with a recovery time objective of                  which was
inconsistent with the COOP documentation for these systems, as well as the
FISMA categorization of the systems. For example, the NotiFind emergency
notification system has a MEF designation of immediate, but is being externally
hosted at a location with an availability rating of moderate. Further, the SEC has
no DRP for NotiFind or any records showing that testing has been conducted for
the system. We also found that there some systems listed as critical in the BIA
Matrix Recovery Time Objectives even though the BIAs themselves state that the
systems are not critical.

Underutilization of                                                            The
SEC’s Disaster Recovery Planning Policy, OIT-00003-001.0, which was issued in
2002, requires SEC personnel to maintain disaster recovery information in the
        67
           However,         is not being fully utilized for this objective at this
time. While         has been used for templates and some list keeping, the



67
     SEC Disaster Recovery Planning Policy, OIT-00003-001.0, August 6, 2002, page 2, section 7b.
Review of the SEC’s Continuity of Operations Program                                       April 23, 2012
Report No. 502
                                         Page 23
                                 REDACTED PUBLIC VERSION
system has not been fully utilized, raising questions as to why it should be rated
critical for disaster recovery purposes or even retained. 68

         Recommendation 7:

         The Office of Freedom of Information Act, Records Management, and
         Security, in conjunction with the Office of Information Technology and
         system owners, should revise the Securities and Exchange Commission
         (SEC) system recovery time objectives to specify more realistic
         timeframes, based on the ability to transition to the alternate site, and then
         determine acceptable recovery times. The recovery plan and priority of
         recovery of the systems should be based on the overall mission of the
         agency with a focus on real-time monitoring of the markets. Further, the
         identification of high priority systems should focus on the immediate
         mission of the agency, and systems documentation should also be
         reviewed to ensure proper recovery priority is reflected based on the
         contribution to the SEC’s mission and functions.

         Management Comments. OFRMS and OIT concurred with this
         recommendation. See Appendix VII for management’s full comments.

         OIG Analysis. We are pleased that OFRMS and OIT concurred with this
         recommendation.

         Recommendation 8:

         For underutilized systems such as the
                   the Office of Information Technology should consider
         discontinuing maintenance, retiring the system, or alternatively making
         more robust use of the system such that additional Commission funds are
         not wasted on underutilized systems.

         Management Comments. OIT concurred with this recommendation.
         See Appendix VII for management’s full comments.

         OIG Analysis. We are pleased that OIT concurred with this
         recommendation.




68
  OIT indicated that it was considering changing the rating of   to non-critical based upon its review of
that system.
Review of the SEC’s Continuity of Operations Program                                     April 23, 2012
Report No. 502
                                         Page 24
                                 REDACTED PUBLIC VERSION
Finding 4: Improvements Are Needed in Recovery
from              and Related Testing
           The regional offices’ disaster recovery exercises do not
           include restoration from               which is the primary
           method used to restore regional office data, or from the
                              that serves as the secondary recovery
           method.       In addition, the current
                      processes are insufficient.

The SEC Has Not Tested Recovery from




According to the Contingency Planning Guide for Federal Information Systems,
”[s]ystem data should be backed up regularly. Policies should specify the
minimum frequency and scope of                (e.g., daily or weekly, incremental or
full) based on data criticality and the frequency that new information is
introduced. Data             policies should designate the location of stored data,
file-naming conventions, media rotation frequency, and method for transporting
data offsite.” 71 In addition, “         media should be stored offsite in a secure,
                                        72
environmentally controlled location.”

The Contingency Planning Guide for Federal Information Systems further
provides that testing is a critical element of a viable contingency capability.
“Testing enables plan deficiencies to be identified and addressed by validating
one or more of the system components and the operability of the plan.” 73

By reviewing the FISMA systems the SEC reported to OMB for 2011, we
determined that most of the SEC’s FISMA reportable systems have a system
security categorization of moderate, which indicates that the availability is no
more than moderate and, in some cases, may be low. For a security



69
     As previously mentioned, the regional offices are                                      and
      nagement expects to have this effort completed during 2012.


   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010, page
21, section 3.4.2.
72
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010, page
46, section 5.1.5.
73
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010, page
27, section 3.5.1.
Review of the SEC’s Continuity of Operations Program                                   April 23, 2012
Report No. 502
                                          Page 25
                                  REDACTED PUBLIC VERSION
categorization of moderate impact, exercise procedures should be developed to
                                                          74
include an element of system recovery from

The SEC currently utilizes automated                          as the
        for its SEC systems, although the SEC has plans to replace the
                                  with a                        in the near future.
We found that SEC’s regional offices have not tested system recovery from
                and have not successfully transitioned to an alternate site. We
also identified several lessons learned reports from regional offices DRP testing
exercises and open plans of action and milestones indicating issues and
concerns with the

Difficulties with Data Restoration at the
                As part of our review, we visited both the
                             to observe the restoration or regularly–scheduled
         of    randomly selected systems.           of these systems were part of
the database storage area network. OIT staff indicated that in order to restore
these individual systems, the entire server hosting the multiple applications and
systems would have to be restored, which would have taken well over            hours
to restore. For another group of systems we selected, OIT staff stated that the
         of the application folder takes over      hours and it would take at least
that long to restore the systems. As a consequence, it was questionable whether
the indicated recovery time objectives for these systems of                 could be
met. Further, for the last of the     systems selected for testing, the
                    OIT staff could not locate the
         and indicated that the                               application was not
being             . Finally, we found that OIT’s June 2011 Headquarters disaster
recovery exercise did not include restoring or testing                  although
testing of the

Review of Individual System and Regional Office        Procedures. In
order to assess individual system     we reviewed BIAs for a random
sample of    critical systems:



Our review found the                                     system (a FISMA
reportable system, even though it is a test system with only 6 to 8 users) was
scheduled to be backed up biweekly, instead of in daily increments and weekly
          per the DRP requirements. We also found that the COOP, DRP and
BIA documents for
      did not include language regarding
       , there was no DRP for the               system, and the              BIA

74
  NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010, page
30.
Review of the SEC’s Continuity of Operations Program                                  April 23, 2012
Report No. 502
                                      Page 26
                              REDACTED PUBLIC VERSION
did not include any written        procedures. Because the
is relying on the                      as its off-site     if operations shifted
to the Alternate Data Center, these two systems would have to be rebuilt and any
data stored on them could be lost.

         for the regional offices consists of          of their




                                                               This process permits
virtually instantaneous transition to the         servers in the event of a disaster
warranting such action. It should be noted, however, that transition of service
from the secondary site back to the primary site may take a significant amount of
time, depending on the number of changes made while operating from the
secondary site and the total amount of data involved. This potential delay in
restoring service back to the primary site is a factor that should be considered
when deciding whether transition to a secondary location is justified during a
disaster situation. The
                                  were established as                              for
the replication target servers, and these three locations host the regional office


Our review of the documentation pertaining to the                          method
disclosed that there is no documented             and recovery plan for the
replication system’s operations. We also determined that OIT operational groups
were not fully familiar with the recovery strategies, as indicated in disaster
recovery testing results. We concluded that the loss of a
could result in the loss of the replication support for               regional offices,
and found that there are no procedures in place for reassigning the hosted
replication and recovery responsibilities. Based upon a review of the regional
office disaster recovery plan, we found that if a regional office’s servers were
                            as a result of a disaster recovery,
                                                                for any non-affected
regional offices. Additionally, we found that there were no policies and
procedures to provide for                 (which is the primary regional office
         method) to be performed at the secondary transition site. Difficulties in
                     could be encountered at the transition site as insufficient
tapes might be available because the volume of data could increase to levels
dramatically exceeding the transition sites’ current capabilities.




Review of the SEC’s Continuity of Operations Program                      April 23, 2012
Report No. 502
                                   Page 27
                           REDACTED PUBLIC VERSION
Regional Office                      May Not Be Readily Available. While the
regional office transition sites (e.g., the
                                        are capable of hosting systems for the SEC’s
regional offices in the event of a disaster recovery, we determined that the
regional office transition sites may not have ready access to
                                                          because they are kept at
                         , per the disaster recovery plans. Additionally, we found
that eight regional offices
                                                have not identified alternate
locations (or emergency operation centers) for SEC staff to work from during
disaster recovery and have not addressed in DRPs or disaster recovery testing
the procedures for remotely accessing information from the designated transition
site. Further, the regional office DRPs do not include the number of software
licenses for each product used for systems or a licensing strategy.

Survey Questions Concerning                   Access and Validation. We
conducted an agency-wide survey to gather information on the staff’s
perspectives on the SEC’s COOP, including the DRP, BCP, essential personnel,
and OIT continuity-related activities, as well as the SEC’s pandemic plan. The
survey’s overall response rate was over 70 percent. The survey results indicated
that there was insufficient understanding of the requirements for maintaining
adequate              on the part of those responding to questions about           .
Seventy-six percent of the 132 persons who responded to the pertinent survey
question indicated that they knew where their division/office’s                 was
located, but only 30 percent of 130 respondents indicated that they could access
the             Further, 43 percent of 115 respondents indicated they had not
verified that their critical data was being           within the last year or a
longer time period.

       Recommendation 9:

       The Office of Information Technology (OIT), in conjunction with system
       owners, should identify the           requirements (e.g., files, data, and
       system software) for all systems (at minimum, Federal Information
       Security Management Act reportable systems). OIT should ensure that
                requirements are documented, understood by the owner, and
       published for future reference. Further, OIT should ensure system
       software licenses and key requirements are included in
       documentation, and the location of this information is known to ensure
       restoration capability at the alternate location site.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.



Review of the SEC’s Continuity of Operations Program                    April 23, 2012
Report No. 502
                                   Page 28
                           REDACTED PUBLIC VERSION
       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 10:

       The Office of Information Technology, in conjunction with the regional
       offices, should document the processes and procedures to be used in the
       event that a regional office needs to restore its systems at a regional office
       transition site, and the corresponding effect on the         procedures for
       other regional offices that may need to use a regional office transition site
       or alternate method to ensure recoverability.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 11:

       The Office of Information Technology (OIT) should continue its efforts to
       replace the regional office’s tape         systems. Additionally, OIT
       should define a           and recovery strategy for multi-hosted application
       restoration for the regional offices. OIT should also document the system
       specific files and database items, in order to facilitate the ability to restore
       only necessary items, rather than the entire database, which could take
       many hours to accomplish and is not in line with the recovery time
       objectives for individual systems.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.
       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 12:

       The Office of Information Technology should implement consistent and
       appropriate         schedules for mission essential and Federal
       Information System Management Act reportable systems, including daily,
       weekly, and monthly          processes and procedures, to ensure these
       systems are recoverable.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.


Review of the SEC’s Continuity of Operations Program                       April 23, 2012
Report No. 502
                                   Page 29
                           REDACTED PUBLIC VERSION
       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 13:

       The Office of Information Technology should include in the Disaster
       Recovery Plan and Business Continuity Plan, testing steps that are
       designed to ensure the restoration from         media that is consistent
       with the requirements for systems that are rated as moderate, in
       accordance with the National Institute of Standards and Technology
       guidance under the Federal Information Systems Management Act.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.


Finding 5: Remote Access/Telework Testing Was
Not Included in the SEC’s DRP and Pandemic
Plan Testing
       There is no evidence that remote access (user access from
       non-office locations) was tested during the DRP and
       pandemic plan testing that was conducted from 2007 to
       2011.

The SEC is Not Fully Testing Remote Access/Telework for All
Essential Personnel on a Regular Basis

Federal legislation has placed a priority on telework. For example, on December
8, 2004, Congress enacted Public Law 108-447, which required the SEC to
certify within two months that telecommuting opportunities were made available
to 100 percent of the eligible workforce. On December 9, 2010, the Telework
Enhancement Act of 2010, Public Law 111-292, was enacted, which required
that, within 180 days, executive agencies establish a telework policy authorizing
telework for all eligible employees, determine the eligibility of all employees to
participate in telework programs, and notify all employees of their eligibility to
telework. The Telework Enhancement Act of 2010 also required agencies to
incorporate telework into their COOP plans.



Review of the SEC’s Continuity of Operations Program                  April 23, 2012
Report No. 502
                                   Page 30
                           REDACTED PUBLIC VERSION
An effective telework program requires that employees be able to access the
SEC network remotely. The SEC has established two primary methods for
remote access: (1) the use of a token to acquire virtual private network (VPN)
                                                                           75
access; (2) the use of a
Through VPN and/or           SEC personnel and contractors can gain access to
their e-mail, network applications,           sites, network data files, and their
desktops. The SEC has issued           tokens for access through VPN and
               SEC staff who have been identified as essential personnel under
the SEC’s COOP are required to have remote network access capability through
both of these two primary methods.

Based upon a review of COOP documents including those found on the
     we identified personnel: (a) listed as essential who no longer work at the
SEC, (b) listed as essential who have not been issued remote access devices,
and (c) who were issued devices and have not tested them. Documentation
related to COOP 2009 testing indicated that remote access testing was included
as part of that exercise. 76 Further, our review of COOP and disaster recovery
test plans and reports reflected that while there was some end-user testing
conducted during disaster recovery, there was no indication that users were
logging into the                                      from a telework or other
alternate work site.

Essential Personnel             Access. Our review found that some essential
personnel who had been issued            devices have never logged in or have not
logged in remotely within the past year and, therefore, have not effectively tested
their ability to log in during an unscheduled event. Of     identified essential
personnel,         have been issued                 We reviewed system log
extracts to determine whether those essential personnel had utilized their remote
       access and found                                    had not logged onto the
SEC’s network remotely since March 2010. Further, we found that          of the
                                                     77
had never logged onto the SEC’s network remotely.

Remote access to the SEC’s network serves as an important contingency
capability in the event of an emergency or serious system disruption by providing
access to SEC data for recovery teams or users from another location. If remote
connectivity is not tested regularly, connectivity may be difficult during an event.




75
   While the SEC has other methods of remote access, such as
              we focused our review on                  because these methods are more appropriate for
conducting business activities lasting up to 30 days.
76
   We received this documentation after our fieldwork was completed.
77
   Of the                     that OIT has issued to SEC contractors and employees as of December 2011,
we found that 167 (11.2 percent) of the recipients had not logged onto SEC’s network since March 2010.
Review of the SEC’s Continuity of Operations Program                                    April 23, 2012
Report No. 502
                                       Page 31
                               REDACTED PUBLIC VERSION
Essential Personnel VPN Access. To review VPN access, we randomly
selected    of the    essential personnel78 and found that     (70 percent)
had not logged onto the SEC’s network through VPN since May 2010.

In addition, TWM encountered difficulties for establishing remote access to the
SEC network. In fact, it took TWM over two months to fully establish VPN
access and connectivity on laptops running three different operating systems.
We found that while the remote access environment is equipped to support the
majority of the SEC users, there are issues that need to be resolved with
direction and support of configurations for the end user. Therefore, end users
must review, configure, and test their remote access capabilities on a scheduled
basis to ensure that their systems are operational if activation is required during
an event.

Identification of Remote Access for Five Systems Revealed Problems. We
randomly selected five of the COOP identified critical systems



For the systems selected, we compared the identified number of system users
contained in the DRP or BIA documents with the number of users who have been
issued remote access devices according to the applicable group or function. We
found that 60 percent of the user base was not immediately identifiable as having
remote access. For one system, no information was available concerning the
number of system users. We found that two systems had adequate remote
access based on the user base.

Remote Access to Desktops Could Be Improved. We found that SEC
contractors and employees who use SEC workstation-specific applications
remotely must ensure that their office desktop computers (or laptops if left at the
office) are turned on. Further, our survey of SEC personnel and contractors
determined that 570 of 1,871 respondents (30.5 percent) indicated that their
remote access of SEC computer systems required the normal worksite desktop
or laptop to be left on, while 276 of 1,871 respondents (14.8 percent) were
unsure as to whether the desktop or laptop had to be left on. Additionally, if the
power is out at the SEC’s office locations, contractors and employees who have
workstation-specific software cannot access their desktops remotely. We found
that remote access capabilities would be enhanced if remote access to desktop
applications could function even if the user’s desktop computer was turned off or
did not have power.




78
  OIT could not readily determine how many of the   identified essential personnel had been issued
tokens for remote VPN access.
Review of the SEC’s Continuity of Operations Program                                    April 23, 2012
Report No. 502
                                       Page 32
                               REDACTED PUBLIC VERSION
Teleworking and Remote Access Not Defined in COOP Documents. We
observed that the SEC’s COOP documents do not clearly define when
teleworking may be used for COOP activities or which staff members who have
not been identified as essential personnel are allowed to telework. Our survey
revealed that 934 of 2,334 of respondents (40 percent) did not know if they were
required to work from an alternate worksite during an unscheduled event.
Further, 417 respondents indicated that they were required to go to an alternate
worksite during an unscheduled event, and 215 respondents indicated that they
knew the location of their alternate worksite. Of these 215 respondents, 75 (34.9
percent) identified their “home or residence,” as the alternate worksite. These
responses imply that these individuals are scheduled to telework during an event
even though this option is not specified in the COOP documents.

Pandemic Specific Remote Access Requires Testing. The SEC has a
pandemic plan and its remote access capabilities appear to be adequate for this
purpose. Specifically, we found that the remote access architecture of the SEC
could handle the estimated 40 percent absenteeism rate during a pandemic
(approximately        personnel) 79 as       remote access tokens have been
issued to provide access to the servers at the Operations Center and the
Alternate Data Center, and the remote access servers are designed to handle
more than 5,000 users at each location. However, we found that the annual
remote access testing specified in the pandemic plan has not occurred.

        Recommendation 14:

        The Office of Information Technology should ensure that remote access
        testing is included as part of all Continuity of Operations Program, disaster
        recovery and pandemic testing activities, including those performed in the
        regional offices, to ensure that essential personnel and a sample of the
        representative users of the system are able to function remotely during an
        unscheduled event.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VII for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.




79
  According to the Interagency Statement on Pandemic Planning, page 6, absenteeism may reach 40
percent during the peak weeks of a community outbreak during a severe pandemic. The estimate of
                                                                 listed as required to take the annual
online COOP training for 2011.
Review of the SEC’s Continuity of Operations Program                                       April 23, 2012
Report No. 502
                                        Page 33
                                REDACTED PUBLIC VERSION
       Recommendation 15:

       The Office of Information Technology (OIT), in consultation with the Office
       of Freedom of Information Act, Records Management and Security
       (OFRMS), should require semiannual testing of remote access devices to
       ensure up-to-date connectivity and ability for both essential personnel and
       non-essential personnel to access the Commission’s network. In addition,
       OIT and OFRMS should implement a system notification warning prior to
       the connectivity testing date and then disable those devices that are not
       updated.

       Management Comments. OIT and OFRMS concurred with this
       recommendation. See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT and OFRMS concurred with this
       recommendation.

       Recommendation 16:

       The Office of Freedom of Information Act, Records Management, and
       Security and the Office of Information Technology should consider
       implementation of alternate remote access solutions and/or internal
       directory structure that
                                                                  and Federal
       Information Security Management Act reportable systems.

       Management Comments. OFRMS and OIT concurred with this
       recommendation. See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OFRMS and OIT concurred with this
       recommendation.

       Recommendation 17:

       The Office of Freedom of Information Act, Records Management and
       Security and the Office of Information Technology should update the
       Continuity of Operations Program (COOP) documents and necessary
       agreements to appropriately reflect authorized telework activities by
       Commission personnel during unscheduled events under the COOP,
       disaster recovery and pandemic plans, including equipment that will be
       used for teleworking in such circumstances.

       Management Comments. OFRMS and OIT concurred with this
       recommendation. See Appendix VII for management’s full comments.


Review of the SEC’s Continuity of Operations Program                  April 23, 2012
Report No. 502
                                   Page 34
                           REDACTED PUBLIC VERSION
        OIG Analysis. We are pleased that OFRMS and OIT concurred with this
        recommendation.


Finding 6: COOP and Disaster Recovery Testing
Activities Can Be Improved
        The SEC is not testing all of its DRPs annually. Past DRP
        testing did not include the “recovery phase” and
        “reconstitution phase.” Further, not all test, training, and
        exercise activities identified in NIST SP 800-53 guidance for
        a FISMA security categorization rating of moderate is being
        conducted. Further, the regional offices have not tested
        restoration to an alternate site, and the pandemic plan has
        not been tested since 2007.

The SEC’s COOP and DRP Testing Activities Need Improvement
Annex K to FCD 1 provides as follows regarding the testing, training an exercise
of an agency’s COOP:

        The testing, training, and exercising of continuity capabilities is
        essential to demonstrating, assessing, and improving an agency’s
        ability to execute its continuity program, plans, and procedures.
        Training familiarizes continuity personnel with their roles and
        responsibilities in support of the performance of an agency’s
        essential functions during a continuity event. Tests and exercises
        serve to assess, validate, or identify for subsequent correction, all
        components of continuity plans, policies, procedures, systems, and
        facilities used in response to a continuity event. Periodic testing
        also ensures that equipment and procedures are kept in a constant
        state of readiness. 80

Two elements of disaster recovery, the recovery phase and the reconstitution
phase, are often overlooked in disaster recovery testing activities. The recovery
phase is the “implementation of prioritized actions required to return an
organization’s processes and support functions to operational stability following
an interruption or disaster.” 81 Second, the reconstitution phase is the “process by
which surviving and/or replacement organization personnel resume normal
agency operations from the original or replacement primary operating facility.” 82
Further, OMB’s guidance to agencies on FISMA reporting for Fiscal year 2011

80
   Federal Continuity Directive 1 (FCD1), February 2008, Annex K, page K-1.
81
   Federal Continuity Directive 1 (FCD1), February 2008, Annex, page P-8.
82
   Federal Continuity Directive 1 (FCD1), February 2008, Appendix P, page P-8.
Review of the SEC’s Continuity of Operations Program                             April 23, 2012
Report No. 502
                                       Page 35
                               REDACTED PUBLIC VERSION
provides that all agency information systems, including those operated by a
contractor or other organization on the agency’s behalf, must be tested at least
annually. 83 As noted above, agencies are required to categorize systems subject
to FISMA based upon the three security objectives of confidentiality, integrity,
and availability, and the highest rating of the three objectives determines the
overall system security impact rating of high, moderate or low. The Contingency
Planning Guide for Federal Information Systems specifies that a functional
exercise at an organization-defined frequency should be conducted for
moderate-impact systems. 84 “The functional exercise should include all ISCP
points of contact and be facilitated by the system owner or responsible authority.
Exercise procedures should be developed to include an element of system
recovery from                 .” 85

DRP Testing Does Not Currently Include All Systems. In the course of our
review, we learned that during the SEC’s June 2011, disaster recovery testing
exercise,         SEC systems were identified for testing. 86 Of these
systems,     were shown as passing from the end user testing,        of which were
external systems
                                             system failed; and were not actually
tested. There were no results listed for the remaining      systems, which were
not scheduled to be included in the testing.

We further found that     (39.5 percent) internal systems were not included
in the                          failover testing that took place in June 2011
and November 2011. These systems included:




83
   OMB Memorandum for Heads of Executive Departments and Agencies on FY 2011 Reporting Instructions
for the Federal Information Security Management Act and Agency Privacy Management, M-11-33,
September 14, 2011, FY 2011 Frequently Asked questions on Reporting for the Federal Information Security
Management Act and Agency Privacy management, page 11, Answer to Question 8. See also 44 U.S.C. §
344(b)(5)(requiring agencies to perform “periodic testing and evaluation of the effectiveness of information
84
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010, page
30.
85
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010, page
30.
86
   While some additional systems were tested in the November 2011 disaster recovery exercise, the results
of this testing were not available at the time TWM performed its fieldwork.
87
   The SEC is transitioning from the                                          to a shared service provider.
Review of the SEC’s Continuity of Operations Program                                        April 23, 2012
Report No. 502
                                        Page 36
                                REDACTED PUBLIC VERSION
We also found           (40.8 percent) active systems did not have a DRP testing
date scheduled at the time TWM completed its fieldwork for this review. These
systems included:




Insufficient DRP Testing for Regional Offices and Externally Hosted
Systems. We found that DRPs for seven regional offices
                                                              have not been tested
annually, and two regional offices                                  did not include
recovery phase testing in their most recent disaster recovery test plans. Also
seven regional offices
                     did not include reconstitution phase testing in their latest
disaster recovery test plans. Further, we found that the regional offices are not
testing any element (e.g., a file or data record) from the system’s
for systems with a moderate security rating.

Moreover, the regional offices disaster recovery plan exercises that took place
from 2008 to 2011 were simulated, paper exercises and did not perform full
functional testing of the equipment, such as transition to an alternate data center
or restoration from                Comprehensive testing, which confirms that
information technology operations can be restored at a                in the event
of an extended power failure at the primary site, should be conducted periodically
to ensure that the plans are reasonable, effective, and complete, and that
personnel know what their roles and responsibilities are in the enactment of the
plans. 89



88
   OIT informed us that the                                                      is not in production
however, this system was reported to OMB under FISMA.
89
   NIST 800-84, Guide to Test, Training, and Exercise Programs for IT Plans and Capabilities, September
2006, page 6-2.
Review of the SEC’s Continuity of Operations Program                                      April 23, 2012
Report No. 502
                                       Page 37
                               REDACTED PUBLIC VERSION
An externally hosted system is a system or application that is operated outside
the SEC network and is not managed by SEC. OIT reviewed the externally
hosted system documentation provided by external entities (both federal and
private) for disaster recovery and contingency planning activities through the
certification and accreditation process. Our review of this information revealed
that the                 for      externally hosted system,
was not stored in a secure, offsite, environmentally-controlled location. We
further found that another externally hosted system,
                             , could be unavailable for up to two weeks and that this
information was taken into account in determining the recovery time objectives
for dependent systems. Based upon the documentation provided, we found that
the externally hosted systems did not have regular disaster recovery exercises.

Essential Personnel Have Not Sufficiently Participated in Testing. The SEC
has indicated in its OIT contingency plan that the COOP and disaster recovery
testing exercise participation satisfies the requirement to ensure a trained
workforce is available to support the SEC’s mission critical functions during and
following a disaster. However, our review of the 2011 annual COOP testing and
exercise documentation, including attendee sign-in sheets, revealed that only
        (3.1 percent) persons identified as essential personnel under the COOP
attended that exercise. We found that this did not constitute an adequate
participation level to ensure that essential personnel receive proper training.

Our review also did not find a sufficient level of participation by regional office
essential personnel in disaster recovery testing to ensure that they are
adequately trained. We found that seven regional offices
                                                          identified essential
personnel in their COOP supplement. By comparing this information to disaster
recovery testing reports, sign-in sheets, and other related data, we determined
that approximately 88 percent of personnel identified as essential, did not
participate in DRP testing. The remaining four regional offices
                                   did not identify their essential personnel in their
COOP supplement, so we were unable to determine whether their essential
personnel participated in DRP testing. We concluded that regional office
essential personnel have not been trained sufficiently in their roles and
responsibilities under the COOP, disaster recovery, business continuity and
pandemic plans.

System Functionality Has Not Been Fully Tested in Connection with
Disaster Recovery Plans. DRPs for many of the SEC’s systems included
specific scripts to be used to verify system operation and functionality when the
system is being established at an alternate site. We reviewed the annual
disaster recovery testing documentation for 2007 to 2011, for       randomly
selected systems, which included the disaster recovery test results, lessons
learned, and script results. We found that disaster recovery plan scripts for

Review of the SEC’s Continuity of Operations Program                      April 23, 2012
Report No. 502
                                   Page 38
                           REDACTED PUBLIC VERSION
                                                                     were
included in the documentation for the annual disaster recovery exercise, although
from the available documentation we could not determined if the scripts were
used during the exercises or if the results were reviewed. We found that the
other       systems were not included in the annual disaster recovery testing.

Problems Identified with Communication Channels for Essential Personnel.
SEC COOP Program documents indicated to ensure communication channels
are clear and available during an event, essential personnel are to be issued
        elevated communication cards:

        We found that                            essential personnel do not have
      cards, and that                         essential personnel do not have
     cards. We also found that                              Commission
users were not identified as essential personnel, and           users were not in
the SEC Directory indicating that they may no longer be with the SEC.

Pandemic Plan Testing Is Not Conducted Regularly. We also found that the
last SEC Pandemic Flu Exercise was conducted in September, October, and
November of 2007. Further, the Pandemic Flu exercises did not include remote
access testing and was only a paper questionnaire analysis. Pandemic plans
should be tested regularly and remain relevant to the scope and complexity of
the organization’s operations.

       Recommendation 18:

       The Office of Freedom of Information Act, Records Management, and
       Security and the Office of Information Technology should ensure that the
       agency’s disaster recovery testing includes the Commissions mission
       essential and Federal Information Security Management Act reportable
       systems and pandemic plan testing is conducted on a regular basis.

       Management Comments. OFRMS and OIT concurred with this
       recommendation. See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OFRMS and OIT concurred with this
       recommendation.




Review of the SEC’s Continuity of Operations Program                  April 23, 2012
Report No. 502
                                   Page 39
                           REDACTED PUBLIC VERSION
       Recommendation 19:

       The Office of Information Technology (OIT) should determine aspects of
       continuity of operations disaster recovery and business continuity plan
       testing that should be conducted annually for regional offices and for
       Federal Information Security Management Act reportable systems based
       upon their security categorization. OIT should ensure that this testing
       includes the recovery phase and the reconstitution phase, as well as a
       restoration from                .

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 20:

       The Office of Information Technology should add elements to contracts
       and service level agreements for externally hosted systems to provide
       appropriate methods by which the Securities and Exchange Commission
       (SEC) can obtain assurance that appropriate disaster recovery plan
       testing is performed on mission essential and Federal Information Security
       Management Act reportable systems and to ensure the systems are able
       to function during unscheduled events. Such measures may include SEC
       participation in the disaster recovery plan testing for the externally hosted
       systems and/or a review of the results of such testing.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 21:

       The Office of Information Technology should include elements of testing
       from an alternate site in the regional office continuity of operations
       program, disaster recovery, and business continuity plan testing on a
       periodic basis to ensure the necessary capability and functionality for
       regional office activities are in place.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.


Review of the SEC’s Continuity of Operations Program                    April 23, 2012
Report No. 502
                                   Page 40
                           REDACTED PUBLIC VERSION
       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 22:

       The Office of Freedom of Information Act, Records Management and
       Security and the Office of Information Technology should include
       designated essential personnel for systems, divisions/offices, and regional
       offices in COOP and disaster recovery testing to ensure that a trained
       workforce is available to support the SEC’s mission critical functions
       following a disaster.

       Management Comments. OFRMS and OIT concurred with this
       recommendation. See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OFRMS and OIT concurred with this
       recommendation.

       Recommendation 23:

       The Office of Information Technology should ensure that system specific
       scripts and test scenarios are included in the disaster recovery and
       business continuity plan testing activities to provide assurance of system
       functionality at alternate locations.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 24:

       The Office of Freedom of Information Act, Records Management, and
       Security (OFRMS) and the Office of Information Technology (OIT) should
       reassess the definition of essential personnel to ensure that this
       designation includes only personnel whose services are needed during an
       event to establish mission essential system connectivity and conduct
       essential activities until normal operations are resumed. OFRMS and OIT
       should also develop policies and procedures to ensure that elevated
       communication cards are distributed only to necessary personnel, cards
       are disabled upon an employee’s departure from the agency, and all
       essential personnel have appropriate elevated communication cards.



Review of the SEC’s Continuity of Operations Program                   April 23, 2012
Report No. 502
                                   Page 41
                           REDACTED PUBLIC VERSION
           Management Comments. OFRMS and OIT concurred with this
           recommendation. See Appendix VII for management’s full comments.

           OIG Analysis. We are pleased that OFRMS and OIT concurred with this
           recommendation.


Finding 7: Alternate Work Locations Need to Be
Realistic, Maintained in a Ready State, and
Communicated to Staff
           It may be difficult for


                                                              In addition,
           eight regional offices have not specified alternate locations in
           their COOP supplements. Further, alternate work locations
           must be ready for access and use as required and staff need
           to be provided with more information about their alternative
           work site.

Realistic Alternate Work Locations Need to Be Selected, Kept Ready in the
Event They Are Needed, and Better Communicated to Staff

As part of continuity planning, all agencies must identify alternate facilities;
alternate uses for existing facilities; and, as appropriate, virtual office options
including telework. Risk assessments should be conducted on these facilities to
provide reliable and comprehensive data to inform risk mitigation decisions that
will allow agencies to protect assets, systems, networks, and functions while
determining the likely causes and impacts of any disruption. All agency
personnel shall be briefed on agency continuity plans that involve using, or
relocating personnel to, alternate facilities, existing facilities, or virtual offices.
Continuity personnel must be provided with supplemental training and guidance
on relocation procedures. 90

We found that eight regional offices
                                                          have not identified
alternate facilities (whether physical or telecommuting) in their COOP
supplements or DRPs. Additionally, while the SEC’s draft overall COOP plan
identifies alternate worksites for essential personnel, there are no designated
alternate worksite locations (whether physical or telecommuting) for
         personnel and non-essential                 personnel. Further, the

90
     Federal Continuity Directive 1 (FCD 1), February 2008, page 8.
Review of the SEC’s Continuity of Operations Program                          April 23, 2012
Report No. 502
                                          Page 42
                                  REDACTED PUBLIC VERSION
COOP supplements and DRPs do not include all alternate site and travel
logistics for the regional offices,            personnel, and non-essential
                personnel. 91

FCD 1 further provides, at Annex K, that an agency’s test program must include,
among other things, ”[t]esting and validating equipment to ensure the internal and
external interoperability and viability of communications systems, through
monthly testing of the continuity communications capabilities outlined in Annex H
(e.g., secure and nonsecure voice and data communications).”92 We found that
the immediate alternate site for the
               has outdated equipment that is locked
has not been connected to SEC’s network for quite some time.

Depending on the circumstances of an emergency event, SEC essential
functions will be relocated to the one of three alternate work locations:

                                                                    Traffic to the
                                 from the Headquarters location in Washington,
D.C., during an unscheduled event could become extremely difficult, making it
unlikely that these destinations could be reached within             (which the
BIAs for many systems indicates the desirable time frame after an event for
systems to become operational). 93

Alternate Work Sites Are Not Sufficiently Ready. The SEC must be prepared
to address events that could disrupt Headquarters operations with a flexible and
scalable response. Although it is not possible to anticipate all scenarios that
would put the SEC Headquarters at risk; the SEC
     —which supports overall SEC COOP planning—should ensure a
coordinated response to most scenarios. While the SEC COOP Plan addresses
a wide variety of potentially disruptive scenarios, the
      focuses on catastrophic and/or widespread incidents and events that may
occur—with or without warning—and render Headquarters personnel incapable
of or unavailable to perform essential functions. The
      notes that the Headquarters division/office points of contacts shall, at a
minimum, annually review personnel and resources at the devolution sites to
ensure their ability to assume devolution responsibilities.



91
   As noted above, we found that the draft overall COOP plan, has limited discussion on teleworking and
does not adequately address telework options (in lieu of alternate worksites) as part of the COOP process.
92
   Federal Continuity Directive 1 (FCD 1), February 2008, Appendix K, page K-1.




Review of the SEC’s Continuity of Operations Program                                        April 23, 2012
Report No. 502
                                        Page 43
                                REDACTED PUBLIC VERSION
During our review, we were informed that the SEC’s devolution sites,
                                                        were not up-to-date. In
particular, we learned that the equipment available at these sites was out-of-date
and could not be used with the SEC network due to
Further, the SEC’s COOP plan indicates that there are         workstations/work
areas available at the                            where emergency response
personnel are to relocate in the event of an emergency. However, we were
provided with updated space availability information as of January 2012, which
indicated there are a total of                                        in the entire
building. The COOP plan documentation on space availability needs to be
revised to reflect current space availability and needs, taking into account the
potential for telework and remote access.

Updated Accessibility to Alternate Work Sites. Alternate work sites require
pre-arranged activities, including lists of who can access the site, what
equipment can remain at the premises, communication and connectivity
information, and office furniture. Access to the
                                                               security system.
Through discussions with SEC personnel, we learned that in order for SEC
personnel to gain access to the                       they must be cleared and on
the access list maintained at the                         site. We were further
informed that the access list for SEC personnel is not current due to the transition
in COOP personnel and COOP responsibilities.

Access Problems Identified During Prearranged Visit to the
          In December 2011, TWM conducted a prearranged visit to
                   During this visit, TWM found that assigned SEC personnel
could not readily access the                           because their access codes
had expired. For example, we observed that the access code for one SEC staff
member had expired. Further, we learned that two other staff members had to
have their access codes reset because they had expired. This occurs when a
person does not visit the facility on at least a quarterly basis. We also found that
the process for resetting expired access codes required communication with the
                         point-of-contact and the SEC’s point-of-contact, who, at
that time happened to be on site. Expired codes could prove to be a problem if
an actual event occurs and the necessary points of contact are not on site.

Survey Responses Indicate Staff Need to Be Provided with More
Information About Their Alternate Work Locations. In our SEC agency-wide
survey, we questioned SEC employees and contractors regarding their
preparation and readiness for COOP activities, including notification of events
and alternate work locations.

The survey results revealed that 174 of 2,386 (7.3 percent) respondents
indicated they did not know the method by which they would be notified of an

Review of the SEC’s Continuity of Operations Program                    April 23, 2012
Report No. 502
                                   Page 44
                           REDACTED PUBLIC VERSION
event. Three of those 174 respondents were self-identified essential personnel.
These responses raise concerns that some SEC personnel, including essential
personnel, will not be notified of events because the SEC’s primary method of
notifying employees of an unscheduled event is the                   which
requires self-registration.

Our survey further found that 100 of 417 (24 percent) of respondents who
indicated they were required to work from an alternate worksite in the event of a
interruption, did not know the location of their alternate worksite. In addition, 294
of 417 (70.5 percent) respondents did not know whether their families could
travel with them to the alternate work site. Further, in answering questions
specifically pertaining to regional office alternate worksite locations, 57 of 210
(27.1 percent) respondents indicated that they did not know their alternate
worksite locations, and two respondents, in the comment portion of the survey,
identified their alternate worksite location as the public library. In addition, 2 of
32 (6.3 percent) regional office essential personnel who responded) indicated
that they did not have an alternate work site location. 94

         Recommendation 25:

         The Office of Freedom of Information Act, Records Management, and
         Security, in conjunction with the regional offices, should specify alternate
         work locations for which the necessary logistics, such as memoranda of
         agreement, service level agreements, or credit card limits for hotel
         conference rooms or other locations, are arranged in advance.

         Management Comments. OFRMS concurred with this recommendation.
         See Appendix VII for management’s full comments.

         OIG Analysis. We are pleased that OFRMS concurred with this
         recommendation.




94
  Some regional office respondents indicated they would use another non-SEC federal government
location, but the details were not formalized. Our review of SEC COOP plan documents revealed that there
were no regional office Memoranda of Agreement, Memoranda of Understanding or Service Level
Agreements to ensure that a viable location for regional office alternate worksites would be available during
an unscheduled event. See Finding 10 below.
Review of the SEC’s Continuity of Operations Program                                          April 23, 2012
Report No. 502
                                         Page 45
                                 REDACTED PUBLIC VERSION
       Recommendation 26:

       The Office of Freedom of Information Act, Records Management, and
       Security should categorize essential personnel according to necessary
       functions, based on various realistic scenarios (such as Headquarters or
       Operations Center locations becoming inaccessible or not operational,
       including traffic conditions that would affect the scenario). Possible
       categories include personnel required for immediate activities, personnel
       needed to establish connections at the alternate site, and personnel
       needed to work remotely at designated alternate sites such as their
       homes, hotels, or other specified locations.

       Management Comments. OFRMS concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OFRMS concurred with this
       recommendation.

       Recommendation 27:

       The Office of Freedom of Information Act, Records Management, and
       Security, as part of its planning efforts, should specify when Commission
       personnel are to telework after an event and when they must go to the
       designated alternate locations instead of teleworking.

       Management Comments. OFRMS concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OFRMS concurred with this
       recommendation.

       Recommendation 28:

       The Office of Freedom of Information Act, Records Management, and
       Security and the Office of Information Technology should define migration
       paths from the                     should it become inaccessible and
       specify where the alternate worksite


       Management Comments. OFRMS and OIT concurred with this
       recommendation. See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OFRMS and OIT concurred with this
       recommendation.


Review of the SEC’s Continuity of Operations Program                  April 23, 2012
Report No. 502
                                   Page 46
                           REDACTED PUBLIC VERSION
       Recommendation 29:

       The Office of Freedom of Information Act, Records Management, and
       Security and the Office of Information Technology, should ensure that the
       designated Headquarters alternate worksites are ready for use and
       contain sufficient equipment and technology resources. In addition,
       COOP plan documentation should be revised to reflect current space
       availability and needs, taking into account the potential for telework and
       remote access.

       Management Comments. OFRMS and OIT concurred with this
       recommendation. See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OFRMS and OIT concurred with this
       recommendation.

       Recommendation 30:

       The Office of Freedom of Information Act, Records Management, and
       Security and the Office of Information Technology should ensure that
       designated alternate worksite locations are visited and tested periodically
       to ensure ready access and use. Appropriate steps should be taken to
       ensure that any cards or badges required for entry to alternate worksite
       locations are kept up to date and have not expired.

       Management Comments. OFRMS and OIT concurred with this
       recommendation. See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OFRMS and OIT concurred with this
       recommendation.

       Recommendation 31:

       The Office of Information Technology (OIT) should reinforce the need for
       Securities and Exchange Commission (SEC) personnel and contractors to
       register in the agency’s emergency notification system, which is
       designated as the primary method of notifying employees during a
       continuity of operations or pandemic event. OIT should also implement
       procedures to ensure the removal of personnel from the emergency
       notification system after they leave the SEC.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.



Review of the SEC’s Continuity of Operations Program                   April 23, 2012
Report No. 502
                                   Page 47
                           REDACTED PUBLIC VERSION
        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.

        Recommendation 32:

        The Office of Freedom of Information Act, Records Management, and
        Security and the Office of Information Technology should clearly define in
        the continuity of operations, disaster recovery, and business continuity
        plan documentation the alternate worksite or telework locations for both
        essential and non-essential personnel. This documentation should also
        clarify whether, when relocating to an alternate site is required, family
        members may accompany Commission employees and contractors to the
        relocation site, consistent with federal regulations.

        Management Comments. OFRMS and OIT concurred with this
        recommendation. See Appendix VII for management’s full comments.

        OIG Analysis. We are pleased that OFRMS and OIT concurred with this
        recommendation.


Finding 8: Plans of Action and Milestones
(POA&M) Need to Be Complete and Up-to-Date
        While the SEC’s COOP and disaster recovery plan test
        reports list identified issues, areas for improvement, and
        recommended corrective actions; the identified issues and
        recommendations were not included in POA&Ms. Also, the
        regional office POA&Ms have not been updated.

SEC POA&M Maintenance Needs to Be Improved

As stated in the NIST Special Publication 800-53, POA&M “are developed and
maintained for the program management and common controls that are deemed
through assessment to be less than effective.” 95 The POA&M “is a key
document in the security authorization package and is subject to federal reporting
requirements established by OMB.” 96

The SEC performs DRP testing for each regional office infrastructure and
individual system applications. All the regional office’s DRPs state that POA&Ms

95
   NIST SP 800-53 Rev. 3, Recommended Security Controls for Federal Information Systems and
Organizations, August 2009, Appendix G, page G-1,
96
   NIST SP 800-53 Rev. 3, Recommended Security Controls for Federal Information Systems and
Organizations, August 2009, Appendix F-CA, page F-35.
Review of the SEC’s Continuity of Operations Program                                  April 23, 2012
Report No. 502
                                      Page 48
                              REDACTED PUBLIC VERSION
will be created. Our review found 39.5 percent of the recommendations
generated during the regional office DRP testing could not be tracked to POA&M
and were not identified as having been resolved in the updated DRPs (dates
ranging from 2010 to 2011). Further, we found that at least two items identified
in the annual Headquarters COOP testing that should have been included as
POA&M items (submission of filings gap during testing of
         , and order of startup for production servers on Business Objective 11
system).

Regional Office POA&Ms Are Not Updated. We also found that eight regional
offices
                   have not updated their DRPs to include recommendations that
were identified in DRP testing. Specific items of issue or concern listed in the
regional office disaster recovery test plans and evaluation reports included,
among other things, required server migration and the need for updated Tips,
Complaints, and Referrals system DRPs. The issues that were identified in the
testing have not been addressed in a post-exercise activity or included as
POA&Ms. While corrective actions were noted that would require a POA&M,
none was present. All recommendations generated during COOP, DRP, BCP
and pandemic testing should be included in the POA&M. Otherwise,
recommendations could go unresolved and encumber the recovery of a system
during an event.

Regional POA&Ms Were Not Properly Closed Out. Further, we found that all
the SEC’s regional office’s POA&M items that were shown to be open should
reflect a status of closed, according to information provided to the TWM. An
issue identified in an April 2010 exercise conducted by one regional office was
the need to update the POA&M process specifically to include actions required to
correct any problems or issues identified during the April 2010 exercise. There
were also several open POA&M items from the December 2008 and June 2009
disaster recovery exercises that required evaluation by management to ensure
final corrective actions are implemented.

       Recommendation 33:

       The Office of Freedom of Information Act, Records Management, and
       Security and the Office of Information Technology should ensure that
       recommendations made as a result of the continuity of operations,
       disaster recovery, business continuity and pandemic testing are included
       in a management corrective action plan (CAP) and is maintained in the
       CAP until it is resolved.

       Management Comments. OFRMS and OIT concurred with this
       recommendation. See Appendix VII for management’s full comments.


Review of the SEC’s Continuity of Operations Program                 April 23, 2012
Report No. 502
                                   Page 49
                           REDACTED PUBLIC VERSION
        OIG Analysis. We are pleased that OFRMS and OIT concurred with this
        recommendation.

        Recommendation 34:

        The Office of Information Technology (OIT) should ensure that open
        POA&M items from previous years are evaluated by management and
        final corrective actions are implemented to close the items.

        Management Comments. OIT and OFRMS concurred with this
        recommendation. See Appendix VII for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.


Finding 9: Additional Training and Cross-Training
of COOP Personnel is Required
        The SEC’s COOP and disaster recovery exercises do not
        include the majority of the designated essential personnel.
        In addition the high concentration of personnel at SEC
        Headquarters may not provide for adequate geographic
        dispersion of trained personnel.

SEC COOP-Related Training and Cross-Training Need to Be
Improved
The Contingency Planning Guide for Federal Information Systems provides as
follows: “Training for personnel with contingency plan responsibilities should
focus on familiarizing them with ISCP roles and teaching skills necessary to
accomplish those roles. This approach helps ensure that staff is prepared to
participate in tests and exercises as well as actual outage events. Training
should be provided at least annually.” 97

SEC division and office heads select essential personnel based upon the
following factors: (1) the predetermined essential functions that must be
performed, regardless of the operational status of the SEC’s primary operating
facility, (2) the staff members’ knowledge and expertise in performing these

97
   NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010, page
28. Under NIST SP 800-53, an organization should incorporate simulated events into contingency training
to facilitate effective response by personnel during crisis situations. NIST SP 800-53 Rev. 3, Recommended
Security Controls for Federal Information Systems and Organizations, May 2010, Appendix F-CP, page F-
48.
Review of the SEC’s Continuity of Operations Program                                      April 23, 2012
Report No. 502
                                       Page 50
                               REDACTED PUBLIC VERSION
essential functions, and (3) the members’ ability to rapidly deploy to the
relocation site in an emergency situation. The SEC has designated
individuals as essential personnel.

As discussed above, the SEC has chosen to eliminate the BCP, indicating that its
elements are already contained in the DRP and BIAs. As a consequence, the
SEC’s DRP exercises are primarily viewed as information technology exercises.
As training and exercises cover the same topics, the SEC uses exercises to
satisfy the training requirement in an effort to reduce the number of hours
devoted to these activities. 98 The SEC is using the participation in regional office
DRP exercises to satisfy the requirement to train essential personnel both for the
COOP plan and the DRP. As noted above, we found through testing that on
average, 88 percent of regional office essential personnel did not participate in
DRP training or exercises between 2008 and 2011. This indicates that a large
percentage of regional office essential personnel may not have been sufficiently
trained in their roles and responsibilities during a disaster recovery event. As a
consequence, essential personnel may not be able to perform their
responsibilities during the activation of the DRP.

We also reviewed individual system disaster recovery testing by randomly
selecting         internally hosted SEC systems. The systems selected
included:
                                                                         We
identified 14 Points of Contact (POC) from the DRPs for these systems, and
found that 9 POCs had not participated in the DRP testing or training for their
systems. Additionally, for COOP testing, we could not verify who had
participated in the testing or training based on the available documentation for
2010 and 2011 (i.e., Eagle Horizon test plans, Headquarters computer based
training, and related Eagle Horizon testing documents).

While OIT personnel are participating in DRP exercises, many key essential
personnel are not participating in DRP exercises and, therefore, have not
received the appropriate role-based training for their part in DRP and COOP
activities. 99 Instead, they only had the annual refresher online training course.
Further, we found that             SEC staff members deployed to the
                         and were involved in supporting the 2011 Eagle Horizon
exercise. The COOP exercises that have been conducted by OFRMS primarily
included OIT personnel as the participants, and the testing conducted shows the
98
   “Training provides the skills and familiarizes leadership and staff with the procedures and tasks they must
perform in executing continuity plans,” while “[t]ests and exercises serve to assess and validate all the
components of continuity plans, policies, procedures, systems, and facilities used to respond to and recover
from an emergency situation and identify issues for subsequent improvement.” Federal Continuity Directive
1 (FCD 1), February 2008, page 10.
99
   Training personnel before an exercise or test event is typically split between a presentation on their roles
and responsibilities and activities that allow personnel to demonstrate their understanding of the subject
matter. NIST SP 800-84, Guide to Test, Training, and Exercise Programs for IT Plans and Capabilities,
September 2006, page ES-2.
Review of the SEC’s Continuity of Operations Program                                           April 23, 2012
Report No. 502
                                         Page 51
                                 REDACTED PUBLIC VERSION
ability for the                                                   to exercise the
basic failover of the systems. However, the same OIT personnel are being
trained and there has not been sufficient testing for events that would require the
participation of essential and senior personnel, in addition to system owners.

A key continuity concept identified in FCD 1 is geographic dispersion of an
organization’s normal daily operations, which “can significantly enhance an
organization’s resilience and recue the risk of losing the capability to perform
essential functions. Geographic dispersion of leadership, data storage,
personnel, and other capabilities may be essential to the performance of
essential functions following a catastrophic event and will enable operational
continuity during an event that requires social distancing (e.g., pandemic
influenza).” 100

We estimated that based on the distribution of SEC personnel throughout the
country (applying a 40 percent anticipated absenteeism rate 101 to        SEC
personnel listed as required to take the annual online COOP training for 2011),
there would be          potentially absent personnel. We estimated that      would
be absent from the geographically dispersed regional offices, while the remaining
     would be absent from the D.C. metropolitan area where the SEC’s
Headquarters is located. It seems likely that there is sufficient geographic
dispersion of personnel and functions among the SEC regional offices, which
perform similar activities. However, the high concentration of personnel at the
Headquarters location may not provide for adequate geographic dispersion of
trained personnel, such that additional cross-training of personnel may be
warranted.

        Recommendation 35:

        The Office of Freedom of Information Act, Records Management, and
        Security and the Office of Information Technology should ensure that
        continuity of operations, disaster recovery, and business continuity plan
        training occur prior to annual tests exercises or events as recommended
        by NIST Special Publication 800-84, Guide to Test, Training, and Exercise
        Programs for Information Technology Plans and Capabilities, in order to
        ensure that individuals are prepared for their specific roles during a
        disaster recovery event.

        Management Comments. OFRMS and OIT concurred with this
        recommendation. See Appendix VII for management’s full comments.



100
   Federal Continuity Directive 1 (FCD1), February 2008, page 4
101
   In a severe pandemic, absenteeism may reach 40 percent during the peak weeks of a community
outbreak. Interagency Statement on Pandemic Planning, page 6.
Review of the SEC’s Continuity of Operations Program                                  April 23, 2012
Report No. 502
                                      Page 52
                              REDACTED PUBLIC VERSION
           OIG Analysis. We are pleased that OFRMS and OIT concurred with this
           recommendation.

           Recommendation 36:

           The Office of Freedom of Information Act, Records Management, and
           Security, in conjunction with the Office of Human Resources, the Office of
           Information Technology, and the various divisions and offices, should
           consider, consistent with federal personnel regulations, if there is the
           ability to cross-train regional office personnel in functions that are
           performed exclusively at the Commission Headquarters and regional
           offices and, if so, should define these functions and implement procedures
           for cross-training personnel for mission essential functions in the case of a
           COOP or pandemic event.

           Management Comments. OFRMS and OIT concurred with this
           recommendation. See Appendix VII for management’s full comments.

           OIG Analysis. We are pleased that OFRMS and OIT concurred with this
           recommendation.


Finding 10: Necessary Memoranda Of Agreement,
Memoranda Of Understanding, and Service-Level
Agreements Were Not Present or Are Outdated
           The SEC does not have current Memoranda of Agreement
           (MOA), Memoranda of Understanding (MOU), or Service-
           Level Agreements (SLA) that are typically included as
           appendices to agency COOP or DRP plans so they are
           easily accessible during an event.

Alternate Worksite MOU/MOA/SLA Were Not Present or Are Out-
of-Date
The use of formal alternate worksite locations at other federal agencies or private
entities often requires the use of MOUs/MOA or SLAs. For example, “[t]wo or
more organizations with similar or identical system configurations and
technologies may enter into a formal agreement to serve as alternate sites for
each other or enter into a joint contract for an alternate site. This type of site is
set up via a reciprocal agreement or [MOU].” 102 However, “[a] reciprocal

102
      NIST SP 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010, page
23.
Review of the SEC’s Continuity of Operations Program                                     April 23, 2012
Report No. 502
                                         Page 53
                                 REDACTED PUBLIC VERSION
agreement should be entered into carefully because each site must be able to
support the other, in addition to its own workload, in the event of a disaster. This
type of agreement requires the recovery sequence for the systems from both
organizations to be prioritized from a joint perspective, favorable to both parties.
Testing should be conducted at the partnering sites to evaluate the extra
processing thresholds, compatible system and              configurations, sufficient
telecommunications connections, compatible security measures, and the
sensitivity of data that might be accessible by other privileged users, in addition
to functionality of the recovery strategy.” 103

During our review of the SEC’s COOP documents we did not identify any current
(i.e., updated within the last three years) existing MOUs, MOAs or SLAs for
alternate worksite locations, vendors, or services to be obtained or used during
an event. We identified an outdated MOU (entered into in 2006) with the

        which the SEC no longer uses as an alternate work site. We further
found that the outdated     MOU did not list the staff that was to be contacted in
a COOP event.

Further, we found that neither the SEC’s overall COOP plan, nor the OIT
contingency plan includes contract provisions for obtaining hardware, software,
or services for emergencies. Further, the COOP documents we reviewed did not
address the use of government purchase cards to obtain needed hardware,
software, or services in the event of COOP activation, in lieu of MOUs, MOAs or
SLAs. Subsequent to the issuance of the discussion draft report for this review,
we obtained and reviewed two random service contracts. While we found
appropriate language were in these contracts, we were not provided with enough
contracts so that a sample number of the population could be properly test.
Therefore, we could not firmly conclude that the required contractual language is
contained in similar type contracts.

We also reviewed the regional office base DRP (which is to be augmented by the
individual regional offices), as well as the regional offices DRP supplements. We
found that none of these plans included any MOUs, MOAs or SLAs. Our review
of the regional office base DRP disclosed that the regional offices are to use
available equipment from OIT or other regional offices during COOP activation.
While this may be a cost effective solution, it can also be inefficient and
ineffective because the unutilized equipment contained in the disaster recovery
plan hardware inventory lists may not be up-to-date or available. Moreover, it is
unlikely that property transfers would be completed properly given that personnel
would already taxed with the implementation of a DRP. Further, regional office


  .


Review of the SEC’s Continuity of Operations Program                    April 23, 2012
Report No. 502
                                   Page 54
                           REDACTED PUBLIC VERSION
personnel may be reluctant to part with equipment until they are satisfied that the
DRP event will not also affect them and they have reviewed their own DRP
requirements.

Finally, our review found that OIT’s contingency plan did not include MOUs,
MOAs or SLAs for externally hosted systems. Rather, the plan merely noted that
data communication lines are used to connect to these systems and that they fall
under the cognizance of the general support system. Subsequent to the exit
meeting, one externally hosted system contract document was obtained and
appropriate service level metrics and availability language were included.

       Recommendation 37:

       The Office of Freedom of Information Act, Records Management, and
       Security and the Office of Information Technology, in conjunction with the
       Office of Administrative Services and the Office of the General Counsel,
       should document that the necessary contractual agreements and/or
       provisions are in place to ensure the availability of hardware, software,
       and services that may be required during an emergency. The use of
       government credit cards to procure such equipment and services should
       also be considered and documented. If government credit cards are to be
       used for this purpose, the authorized limits established should be sufficient
       for such purchases.

       Management Comments. OFRMS and OIT concurred with this
       recommendation. See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OFRMS and OIT concurred with this
       recommendation.




Review of the SEC’s Continuity of Operations Program                    April 23, 2012
Report No. 502
                                   Page 55
                           REDACTED PUBLIC VERSION
       Recommendation 38:

       The Office of Freedom of Information Act, Records Management, and
       Security and the Office of Information Technology, in conjunction with the
       regional offices, the Office of Administrative Services, the Office of
       Financial Management, and the Office of the General Counsel, should
       ensure that an appropriate and updated Memoranda of Agreement,
       Memoranda of Understanding and Service-Level Agreements are
       executed to provide for alternate work site locations, capabilities, and
       accommodations that may be necessary to ensure continuity of
       operations.

       Management Comments. OFRMS and OIT concurred with this
       recommendation. See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OFRMS and OIT concurred with this
       recommendation.




Review of the SEC’s Continuity of Operations Program                  April 23, 2012
Report No. 502
                                   Page 56
                           REDACTED PUBLIC VERSION
                                                                    Appendix I


                                Abbreviations


          Business Continuity Plan                     BCP
          Business Impact Analysis                     BIA
          Chief Operating Officer                      COO
          Continuity of Operations Program             COOP

          Disaster Recovery Plan                       DRP



          eXtensible Business Reporting Language       XBRL
          Federal Continuity Directive                 FCD
          Federal Information Processing Standard      FIPS
          Federal Information Security Management      FISMA
          Act


          Information System Contingency Plan          ISCP
          Information Technology                       IT
          Information Technology Contingency Plan      ITCP

          Memorandum of Agreement                      MOA
          Memorandum of Understanding                  MOU
          Mission Essential Functions                  MEF
          National Institute of Standards and          NIST
          Technology
          Office of Freedom of Information Act,        OFRMS
          Records Management and Security
          Office of Inspector General                  OIG
          Office of Security Services                  OSS
          Plans of Action and Milestones               POA&M
          Points of Contact                            POC
          Primary Mission Essential Function           PMEF
          Service Level Agreement                      SLA
          TWM Associates, Inc.                         TWM
          U.S. Securities and Exchange Commission      SEC or
                                                       Commission
          Virtual Private Network                      VPN


Review of the SEC’s Continuity of Operations Program                April 23, 2012
Report No. 502
                                   Page 57
                           REDACTED PUBLIC VERSION
                                                                                           Appendix II


         List of Issues Indentified in Review of
         Disaster Recovery and Continuity of
                    Operations Plans

         1. All 13 DRPs (Headquarters, Operations Center, and the
            regional offices)105 did not have a review and approval date
            entered.
         2. Ten regional office DRPs

                               did not include risk management.
         3.   No regional office DRPs included information for budget and
              acquisition of resources.
         4.   Five of 13 DRPs
                                                  did not include an order of
              succession.
         5.   All 13 DRPs did not include concurrent processing.
         6.   One regional office            did not include recovery priority.
         7.   Seven of 13 DRPs
                                                     included BIAs that did not
              appear to be current.
         8.   Ten of 13 DRPs

                       did not include access control policies and
            procedures.
         9. Ten of 13 DRPs

                             did not include all alternate facilities.
         10. All 13 DRPs did not include all alternate site use and travel
             logistics.
         11. The regional office’s DRPs had template language that lacked
             complete information.
         12. Six of 13 DRPs
                            contained vital records information that did not
             appear to be current.
         13. Five of 13 DRPs
                             hard copy vital records without any alternate
             source.
105
    While we found that the                                       did not specifically have DRPs, for the
purposes of this Appendix, the main overall SEC COOP document is considered to be the Headquarters
DRP, and the OIT contingency plan (i.e., the GSS ISCP) is considered to be the Operations Center DRP.
We also reviewed the regional office base plan and the regional office COOP supplements to determine if
they included any of the required information.
Review of the SEC’s Continuity of Operations Program                                        April 23, 2012
Report No. 502
                                        Page 58
                                REDACTED PUBLIC VERSION
                                                                        Appendix II


       14. Eleven of 13 DRPs

                       did not include original or new site restoration
           procedures.
       15. Three of 13 DRPs
           did not include personnel and vendor contact lists.
       16. Two of 13 DRPs                                              had
           incomplete personnel and vendor contact lists.
       17. The regional office’s DRPs did not include information on
           relocation of personnel, relocation of families of personnel,
           alternate site operating procedures or assumptions.
       18. All 13 DRPs did not include MOA, MOUs or SLAs.
       19. The overall COOP document and the OIT contingency plan
           were under revision, as indicated by the water mark of the word
           documents, the list of essential personnel was under revision,
           and the plans did not include a list of vendor information for all
           divisions and offices.
       20. The overall COOP document and the OIT contingency plan
           contained an incomplete order of succession.
       21. The recovery procedures in the overall COOP document and
           the OIT contingency plan’s did not include additional notification
           procedures for more recovery staff, messages and status
           updates to leadership.
       22. The reconstitution procedures in the overall COOP document
           and the OIT contingency plan did not include procedures for
           notifications of return to normal operations or a system full

       23. The overall COOP plan document did not include logistics for
           the Alternate Data Center.
       24. Twelve of 13 DRPs

                                                        did not include
           operating system version levels for software inventory, as
           recommended by NIST SP 800-34.
       25. All 13 DRPs did not include processors, memory, storage
           requirements in equipment inventory, as recommended by NIST
           SP 800-34.
       26. The regional office base DRP’s reconstitution phase did not
           include concurrent processing or offsite data storage return.
       27. For all regional office DRPs, the signature pages were not
           signed or dated, and the DRPs included a large amount of
           template wording.
       28. For 10 of 13 DRPs



Review of the SEC’s Continuity of Operations Program                    April 23, 2012
Report No. 502
                                   Page 59
                           REDACTED PUBLIC VERSION
                                                                           Appendix II


                   the signature pages did not include the designated Crisis
           Management Team and/or information technology specialist.
       29. All regional office DRPs had incomplete sections, such as a
                                                  that was not updated.
       30. For 8 of 13 DRPs
                                                         the
           shutdown/startup procedures were a template and did not
           include all network devices listed in the

       31. For 10 of 13 DRPs

                               Appendix H: Emergency Operation Center
           Locations had not been completed.
       32. For 8 of the 13 DRPs
                                                                       Alternate
           Enhanced Redirect Solutions-authorized personnel were not
           included.
       33. For 1 of 13 DRPs                     shutdown/startup procedures
           was a template with incomplete name and floor fields.
       34. For 8 of 13 DRPs
                                                             the emergency
           communication policies and procedures were sample
           procedures and had not been completed.
       35. One of 13 DRPs                  did not reflect the changes identified
           in the BIA after action report.
       36. Three regional office COOP plan supplements did not provide
           all, if any, of the required information.
       37. Six regional office COOP spreadsheet supplements
                                                                     id not
           appear to be current.
       38. Contracts or related documentation were not provided to
           support provisions in the overall COOP plan document
           reference emergency provisions.
       39. Systems with lower recovery priorities were listed to be
           recovered before systems with more critical recovery
           requirements.




Review of the SEC’s Continuity of Operations Program                        April 23, 2012
Report No. 502
                                   Page 60
                           REDACTED PUBLIC VERSION
                                                       Appendix III


              List of Issues Identified
          From Sample Testing of System
       Disaster Recovery Plan and Business
            Impact Analysis Documents




Review of the SEC’s Continuity of Operations Program    April 23, 2012
Report No. 502
                                   Page 61
                           REDACTED PUBLIC VERSION
                                                       Appendix III




Review of the SEC’s Continuity of Operations Program    April 23, 2012
Report No. 502
                                   Page 62
                           REDACTED PUBLIC VERSION
                                                       Appendix III




Review of the SEC’s Continuity of Operations Program    April 23, 2012
Report No. 502
                                   Page 63
                           REDACTED PUBLIC VERSION
                                                                      Appendix IV


                        Scope and Methodology

The full version of this report includes information that the SEC considers to be
sensitive or proprietary. To create this public version of the report, OIG redacted
(blacked out) potentially sensitive, proprietary information from the report.

Scope. The initial scope of TWM’s reviewed covered calendar years 2009
through 2011. However, during our review and requests for support
documentation, OIT and OSS provided TWM with some data that was dated prior
to calendar year 2009. Specifically, we reviewed documentation to support the
SEC’s COOP that was dated from 2007 through 2011.

We conducted our fieldwork from October 2011 to January 2012.

Further, we obtained information from OIT concerning the SEC’s FISMA
reportable systems for the universe of the SEC’s systems. For each of the
identified systems and SEC facilities, we obtained supporting artifacts (i.e.,
COOP plans, DRPs, BIAs, essential personnel lists, list of          users, list of
       users, system log access extracts, etc.) to the extent they were available.
We surveyed the Commission’s employees and contractors regarding their
preparation and readiness for COOP, DRP, BCP, and pandemic activities. We
obtained information showing the status of SEC’s implementation of prior OIG
audit recommendations relevant to COOP and determined there were no
additional applicable risk areas or potential findings and recommendations
outside of the existing audit program steps for this review. We also observed
and visited the

Methodology. To meet the overall objective to assess the adequacy of the
SEC’s COOP, we reviewed the SEC’s policies and procedures governing COOP,
DRP, BCP and pandemic activities, documentation showing implementation of
those activities, and documents reflecting supporting activities for implementation
of these programs. We also reviewed relevant documentation for individual
systems, Headquarters divisions and offices, regional offices, as well as the
Operations Center and the Alternate Data Center. In addition, we held
discussions with personnel to learn about the SEC’s COOP and to discuss and
confirm our findings and recommendations.

We conducted detailed testing to determine the viability of the SEC’s COOP,
DRP, BCP, and pandemic functions and whether the Commission is complying
with its policies and procedures in these areas. We also performed testing to
measure the effectiveness of the implemented procedures.



Review of the SEC’s Continuity of Operations Program                    April 23, 2012
Report No. 502
                                   Page 64
                           REDACTED PUBLIC VERSION
                                                                    Appendix IV


Management Controls. We reviewed the Commission’s FISMA POA&M items
that document control weaknesses related to COOP, DRP, BCP and pandemic
activities to determine the impact on the existing review program procedures for
this review.

Prior Audit Coverage

   •   2011 Annual FISMA Executive Summary Report, OIG Report No. 501,
       February 2, 2012
   •   Review of Alternative Work Arrangements, Overtime Compensation, and
       COOP-Related Activities at the SEC, OIG Report No. Number 491,
       September 28, 2011
   •   Assessment of SEC’s Continuous Monitoring Program, OIG Report No.
       497, August 11, 2011
   •   2010 Annual FISMA Executive Summary Report, OIG Report No. 489,
       March 3, 2011




Review of the SEC’s Continuity of Operations Program                  April 23, 2012
Report No. 502
                                   Page 65
                           REDACTED PUBLIC VERSION
                                                                    Appendix V


                                       Criteria

Federal Information Security Management Act of 2002, Title III, Pub. L. No.
107-347. Requires federal agencies to develop, document, and implement an
agency-wide program providing security for the information and information
systems that support the operations and assets of the agency, including those
provide or managed by another agency, contractor, or other source.

OMB Memorandum 11-33, FY 2011 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management,
September 14, 2011. Provides instructions to agencies for meeting Fiscal Year
2011 reporting requirements under FISMA.

NIST Special Publication 800-34, Rev. 1, Contingency Planning Guide for
Federal Information Systems, May 2010. Provides instructions,
recommendations, and considerations for federal government information system
contingency planning.

NIST Special Publication 800-53, Rev. 3, Recommended Security Controls
for Federal Information systems and Organizations, August 2009. Defines
security controls recommended for use by organizations in protecting their
information systems that should be employed as part of a well-defined and
documented information security program.

Federal Continuity Directive 1 (FCD 1), Federal Executive Branch National
Continuity Program and Requirements, Issued by the Department of
Homeland Security, February 2008. Provides direction to the federal executive
branch for developing continuity plans and programs.

Federal Continuity Directive 2 (FCD 2), Federal Executive Branch Mission
Essential Function and Primary Mission Essential Function Identification
and Submission Process, February 2008. Implements the requirements of
FCD 1, Annex C, and provides guidance and direction to federal executive
branch departments and agencies for identification of their MEFs and potential
PMEFs.

National Strategy for Pandemic Influenza Implementation Plan, Issued by
the Homeland security Council, May 2006. Provides a high-level overview of
the approach that the federal government will take to prepare for and respond to
a pandemic.




Review of the SEC’s Continuity of Operations Program                 April 23, 2012
Report No. 502
                                   Page 66
                           REDACTED PUBLIC VERSION
                                                                      Appendix V


Interagency statement on Pandemic Planning, Issued by the Federal
Financial Institutions Examination Executive Council Agencies. Provides
guidance to remind financial institutions that BCPs should address the threat of a
pandemic influenza outbreak.

SEC OIT Operating Directive 24-04.09 (02.0), IT Security Business
Continuity Management Program, August 23, 2011. Establishes policy and
responsibilities for business continuity management consistent with requirements
prescribed by FISMA and the SEC’s Information Technology Security Program.

SEC OIT Implementing Instruction 24-04.09.01 (02.0), Business Impact
Analysis, August 22, 2011. Defines the SEC’s process and establishes
responsibilities for conducting a BIA as directed in Operation Directive 24-04.09.

SEC OIT Disaster Recovery Planning Policy, OIT-00003-001.0, August 6,
2002. Maintains the OIT DRP for its infrastructure at the SEC’s Operations
Center, Headquarters, and regional offices.




Review of the SEC’s Continuity of Operations Program                   April 23, 2012
Report No. 502
                                   Page 67
                           REDACTED PUBLIC VERSION
                                                                     Appendix VI


                      List of Recommendations

Recommendation 1:

The Office of the Chief Operating Officer should ensure that the Office of
Freedom of Information Act, Records Management and Security completes its
review of the agency-wide continuity of operations program (COOP) to ensure
the Commission’s COOP is comprehensive, cohesive, and in compliance with
federal guidance.

Recommendation 2:

The Office of Freedom of Information Act, Records Management, and Security
should revise and update the Commission’s continuity of operations program
policies and procedures to ensure they are comprehensive, complete, and up-to-
date.

Recommendation 3:

The Office of Freedom of Information Act, Records Management, and Security
(OFRMS) and Office of Information Technology (OIT), in conjunction with the
program divisions/offices and regional offices, should update, revise and finalize
all continuity of operations program (COOP) documents, including the overall
Headquarters COOP plan, individual division/office COOP plans, regional office
COOP supplements, disaster recovery plans, business continuity plans and
business impact analyses, and pandemic plans supplements. OFRMS and OIT
should ensure these documents are complete and include all the necessary
elements, and that they properly define the Commission’s essential functions. In
addition, processes should be implemented to ensure annual review and
approval of these documents.

Recommendation 4:

The Office of Freedom of Information Act, Records Management, and Security, in
conjunction with program and regional offices, should ensure that vital records
and lines of succession are properly identified, documented and readily available
during continuity events.




Review of the SEC’s Continuity of Operations Program                   April 23, 2012
Report No. 502
                                   Page 68
                           REDACTED PUBLIC VERSION
                                                                     Appendix VI


Recommendation 5:

The Office of Information Technology (OIT), in conjunction with the primary
program information users, should identify
                                                 at the alternate locations should
               be unavailable. Further, OIT should review the Securities and
Exchange Commission’s (SEC) network and topology to ensure there are


Recommendation 6:

The Office of Information Technology should ensure proper power distribution




Recommendation 7:

The Office of Freedom of Information Act, Records Management, and Security, in
conjunction with the Office of Information Technology and system owners, should
revise the Securities and Exchange Commission (SEC) system recovery time
objectives to specify more realistic timeframes, based on the ability to transition
to the alternate site, and then determine acceptable recovery times. The
recovery plan and priority of recovery of the systems should be based on the
overall mission of the agency with a focus on real-time monitoring of the markets.
Further, the identification of high priority systems should focus on the immediate
mission of the agency, and systems documentation should also be reviewed to
ensure proper recovery priority is reflected based on the contribution to the
SEC’s mission and functions.

Recommendation 8:

For underutilized systems such as the
         the Office of Information Technology should consider discontinuing
maintenance, retiring the system, or alternatively making more robust use of the
system such that additional Commission funds are not wasted on underutilized
systems.




Review of the SEC’s Continuity of Operations Program                   April 23, 2012
Report No. 502
                                   Page 69
                           REDACTED PUBLIC VERSION
                                                                        Appendix VI


Recommendation 9:

The Office of Information Technology (OIT), in conjunction with system owners,
should identify the        requirements (e.g., files, data, and system software)
for all systems (at minimum, Federal Information Security Management Act
reportable systems). OIT should ensure that              requirements are
documented, understood by the owner, and published for future reference.
Further, OIT should ensure system software licenses and key requirements are
included in          documentation, and the location of this information is known
to ensure restoration capability at the alternate location site.

Recommendation 10:

The Office of Information Technology, in conjunction with the regional offices,
should document the processes and procedures to be used in the event that a
regional office needs to restore its systems at a regional office transition site, and
the corresponding effect on the           procedures for other regional offices that
may need to use a regional office transition site or alternate method to ensure
recoverability.

Recommendation 11:

The Office of Information Technology (OIT) should continue its efforts to replace
the regional office’s tape          systems. Additionally, OIT should define a
         and recovery strategy for multi-hosted application restoration for the
regional offices. OIT should also document the system specific files and
database items, in order to facilitate the ability to restore only necessary items,
rather than the entire database, which could take many hours to accomplish and
is not in line with the recovery time objectives for individual systems.

Recommendation 12:

The Office of Information Technology should implement consistent and
appropriate         schedules for mission essential and Federal Information
System Management Act reportable systems, including daily, weekly, and
monthly          processes and procedures, to ensure these systems are
recoverable.




Review of the SEC’s Continuity of Operations Program                      April 23, 2012
Report No. 502
                                   Page 70
                           REDACTED PUBLIC VERSION
                                                                     Appendix VI


Recommendation 13:

The Office of Information Technology should include in the Disaster Recovery
Plan and Business Continuity Plan, testing steps that are designed to ensure the
restoration from               that is consistent with the requirements for
systems that are rated as moderate, in accordance with the National Institute of
Standards and Technology guidance under the Federal Information Systems
Management Act.

Recommendation 14:

The Office of Information Technology should ensure that remote access testing is
included as part of all Continuity of Operations Program, disaster recovery and
pandemic testing activities, including those performed in the regional offices, to
ensure that essential personnel and a sample of the representative users of the
system are able to function remotely during an unscheduled event.

Recommendation 15:

The Office of Information Technology (OIT), in consultation with the Office of
Freedom of Information Act, Records Management and Security (OFRMS),
should require semiannual testing of remote access devices to ensure up-to-date
connectivity and ability for both essential personnel and non-essential personnel
to access the Commission’s network. In addition, OIT and OFRMS should
implement a system notification warning prior to the connectivity testing date and
then disable those devices that are not updated.

Recommendation 16:

The Office of Freedom of Information Act, Records Management, and Security
and the Office of Information Technology should consider implementation of
alternate remote access solutions and/or internal directory structure

                        and Federal Information Security Management Act
reportable systems.

Recommendation 17:

The Office of Freedom of Information Act, Records Management and Security
and the Office of Information Technology should update the Continuity of
Operations Program (COOP) documents and necessary agreements to
appropriately reflect authorized telework activities by Commission personnel
during unscheduled events under the COOP, disaster recovery and pandemic
plans, including equipment that will be used for teleworking in such
circumstances.

Review of the SEC’s Continuity of Operations Program                  April 23, 2012
Report No. 502
                                   Page 71
                           REDACTED PUBLIC VERSION
                                                                      Appendix VI


Recommendation 18:

The Office of Freedom of Information Act, Records Management, and Security
and the Office of Information Technology should ensure that the agency’s
disaster recovery testing includes the Commissions mission essential and
Federal Information Security Management Act reportable systems and pandemic
plan testing is conducted on a regular basis.

Recommendation 19:

The Office of Information Technology (OIT) should determine aspects of
continuity of operations disaster recovery and business continuity plan testing
that should be conducted annually for regional offices and for Federal Information
Security Management Act reportable systems based upon their security
categorization. OIT should ensure that this testing includes the recovery phase
and the reconstitution phase, as well as a restoration from

Recommendation 20:

The Office of Information Technology should add elements to contracts and
service level agreements for externally hosted systems to provide appropriate
methods by which the Securities and Exchange Commission (SEC) can obtain
assurance that appropriate disaster recovery plan testing is performed on
mission essential and Federal Information Security Management Act reportable
systems and to ensure the systems are able to function during unscheduled
events. Such measures may include SEC participation in the disaster recovery
plan testing for the externally hosted systems and/or a review of the results of
such testing.

Recommendation 21:

The Office of Information Technology should include elements of testing from an
alternate site in the regional office continuity of operations program, disaster
recovery, and business continuity plan testing on a periodic basis to ensure the
necessary capability and functionality for regional office activities are in place.

Recommendation 22:

The Office of Freedom of Information Act, Records Management and Security
and the Office of Information Technology should include designated essential
personnel for systems, divisions/offices, and regional offices in COOP and
disaster recovery testing to ensure that a trained workforce is available to support
the SEC’s mission critical functions following a disaster.



Review of the SEC’s Continuity of Operations Program                    April 23, 2012
Report No. 502
                                   Page 72
                           REDACTED PUBLIC VERSION
                                                                     Appendix VI


Recommendation 23:

The Office of Information Technology should ensure that system specific scripts
and test scenarios are included in the disaster recovery and business continuity
plan testing activities to provide assurance of system functionality at alternate
locations.

Recommendation 24:

The Office of Freedom of Information Act, Records Management, and Security
(OFRMS) and the Office of Information Technology (OIT) should reassess the
definition of essential personnel to ensure that this designation includes only
personnel whose services are needed during an event to establish mission
essential system connectivity and conduct essential activities until normal
operations are resumed. OFRMS and OIT should also develop policies and
procedures to ensure that elevated communication cards are distributed only to
necessary personnel, cards are disabled upon an employee’s departure from the
agency, and all essential personnel have appropriate elevated communication
cards.

Recommendation 25:

The Office of Freedom of Information Act, Records Management, and Security, in
conjunction with the regional offices, should specify alternate work locations for
which the necessary logistics, such as memoranda of agreement, service level
agreements, or credit card limits for hotel conference rooms or other locations,
are arranged in advance.

Recommendation 26:

The Office of Freedom of Information Act, Records Management, and Security
should categorize essential personnel according to necessary functions, based
on various realistic scenarios (such as Headquarters or Operations Center
locations becoming inaccessible or not operational, including traffic conditions
that would affect the scenario). Possible categories include personnel required
for immediate activities, personnel needed to establish connections at the
alternate site, and personnel needed to work remotely at designated alternate
sites such as their homes, hotels, or other specified locations.

Recommendation 27:

The Office of Freedom of Information Act, Records Management, and Security,
as part of its planning efforts, should specify when Commission personnel are to
telework after an event and when they must go to the designated alternate
locations instead of teleworking.

Review of the SEC’s Continuity of Operations Program                   April 23, 2012
Report No. 502
                                   Page 73
                           REDACTED PUBLIC VERSION
                                                                      Appendix VI


Recommendation 28:

The Office of Freedom of Information Act, Records Management, and Security
and the Office of Information Technology should define migration paths from the
                    should it become inaccessible and specify where the alternate
worksite locations for the

Recommendation 29:

The Office of Freedom of Information Act, Records Management, and Security
and the Office of Information Technology, should ensure that the designated
Headquarters alternate worksites are ready for use and contain sufficient
equipment and technology resources. In addition, COOP plan documentation
should be revised to reflect current space availability and needs, taking into
account the potential for telework and remote access.

Recommendation 30:

The Office of Freedom of Information Act, Records Management, and Security
and the Office of Information Technology should ensure that designated alternate
worksite locations are visited and tested periodically to ensure ready access and
use. Appropriate steps should be taken to ensure that any cards or badges
required for entry to alternate worksite locations are kept up to date and have not
expired.

Recommendation 31:

The Office of Information Technology (OIT) should reinforce the need for
Securities and Exchange Commission (SEC) personnel and contractors to
register in the agency’s emergency notification system, which is designated as
the primary method of notifying employees during a continuity of operations or
pandemic event. OIT should also implement procedures to ensure the removal
of personnel from the emergency notification system after they leave the SEC.

Recommendation 32:

The Office of Freedom of Information Act, Records Management, and Security
and the Office of Information Technology should clearly define in the continuity of
operations, disaster recovery, and business continuity plan documentation the
alternate worksite or telework locations for both essential and non-essential
personnel. This documentation should also clarify whether, when relocating to
an alternate site is required, family members may accompany Commission
employees and contractors to the relocation site, consistent with federal
regulations.


Review of the SEC’s Continuity of Operations Program                   April 23, 2012
Report No. 502
                                   Page 74
                           REDACTED PUBLIC VERSION
                                                                      Appendix VI


Recommendation 33:

The Office of Freedom of Information Act, Records Management, and Security
and the Office of Information Technology should ensure that recommendations
made as a result of the continuity of operations, disaster recovery, business
continuity and pandemic testing are included in a management corrective action
plan (CAP) and is maintained in the CAP until it is resolved.

Recommendation 34:

The Office of Information Technology (OIT) should ensure that open POA&M
items from previous years are evaluated by management and final corrective
actions are implemented to close the items.

Recommendation 35:

The Office of Freedom of Information Act, Records Management, and Security
and the Office of Information Technology should ensure that continuity of
operations, disaster recovery, and business continuity plan training occur prior to
annual tests exercises or events as recommended by NIST Special Publication
800-84, Guide to Test, Training, and Exercise Programs for Information
Technology Plans and Capabilities, in order to ensure that individuals are
prepared for their specific roles during a disaster recovery event.

Recommendation 36:

The Office of Freedom of Information Act, Records Management, and Security, in
conjunction with the Office of Human Resources, the Office of Information
Technology, and the various divisions and offices, should consider, consistent
with federal personnel regulations, if there is the ability to cross-train regional
office personnel in functions that are performed exclusively at the Commission
Headquarters and regional offices and, if so, should define these functions and
implement procedures for cross-training personnel for mission essential functions
in the case of a COOP or pandemic event.




Review of the SEC’s Continuity of Operations Program                   April 23, 2012
Report No. 502
                                   Page 75
                           REDACTED PUBLIC VERSION
                                                                      Appendix VI


Recommendation 37:

The Office of Freedom of Information Act, Records Management, and Security
and the Office of Information Technology, in conjunction with the Office of
Administrative Services and the Office of the General Counsel, should document
that the necessary contractual agreements and/or provisions are in place to
ensure the availability of hardware, software, and services that may be required
during an emergency. The use of government credit cards to procure such
equipment and services should also be considered and documented. If
government credit cards are to be used for this purpose, the authorized limits
established should be sufficient for such purchases.

Recommendation 38:

The Office of Freedom of Information Act, Records Management, and Security
and the Office of Information Technology, in conjunction with the regional offices,
the Office of Administrative Services, the Office of Financial Management, and
the Office of the General Counsel, should ensure that an appropriate and
updated Memoranda of Agreement, Memoranda of Understanding and Service-
Level Agreements are executed to provide for alternate work site locations,
capabilities, and accommodations that may be necessary to ensure continuity of
operations.




Review of the SEC’s Continuity of Operations Program                   April 23, 2012
Report No. 502
                                   Page 76
                           REDACTED PUBLIC VERSION
                                                       Appendix VII


                        Management Comments




Review of the SEC’s Continuity of Operations Program    April 23, 2012
Report No. 502
                                   Page 77
                           REDACTED PUBLIC VERSION
                                                       Appendix VII




Review of the SEC’s Continuity of Operations Program    April 23, 2012
Report No. 502
                                   Page 78
                           REDACTED PUBLIC VERSION
                                                       Appendix VII




Review of the SEC’s Continuity of Operations Program    April 23, 2012
Report No. 502
                                   Page 79
                           REDACTED PUBLIC VERSION
                                                       Appendix VII




Review of the SEC’s Continuity of Operations Program    April 23, 2012
Report No. 502
                                   Page 80
                           REDACTED PUBLIC VERSION
                                                       Appendix VII




Review of the SEC’s Continuity of Operations Program    April 23, 2012
Report No. 502
                                   Page 81
                           REDACTED PUBLIC VERSION
                                                       Appendix VII




Review of the SEC’s Continuity of Operations Program    April 23, 2012
Report No. 502
                                   Page 82
                           REDACTED PUBLIC VERSION
                                                       Appendix VII




Review of the SEC’s Continuity of Operations Program    April 23, 2012
Report No. 502
                                   Page 83
                           REDACTED PUBLIC VERSION
                                                       Appendix VII




Review of the SEC’s Continuity of Operations Program    April 23, 2012
Report No. 502
                                   Page 84
                           REDACTED PUBLIC VERSION
                                                       Appendix VII




Review of the SEC’s Continuity of Operations Program    April 23, 2012
Report No. 502
                                   Page 85
                           REDACTED PUBLIC VERSION
                                                                  Appendix VIII


      OIG Response to Management’s Comments

We are pleased that SEC management has concurred with the 38
recommendations contained in this report. We believe that full implementation of
these recommendations will act to strengthen the SEC’s Continuity of Operations
Program.




Review of the SEC’s Continuity of Operations Program                April 23, 2012
Report No. 502
                                   Page 86
                           REDACTED PUBLIC VERSION
                  Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
